No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

JAMES T. GERSKY,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Matthew G. Borgula
Rachel L. Frank
Counsel of Record
SPRINGSTEAD BARTISH
BORGULA & LYNCH, PLLC
60 Monroe Center Street NW, #500
Grand Rapids, Michigan 49503
(616) 458-5500
matt@sbbllaw.com
rachel@sbbllaw.com
Counsel for Petitioner

Dated: October 29, 2020

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED FOR REVIEW
I.

Should this Court provide guidance to district
courts regarding the forced testimony of
defendants at sentencing, in accordance with
this Court’s precedent?

II.

Is the decision below wrong?

ii
PARTIES TO THE PROCEEDING
Petitioner is James Gersky, a citizen of the
United States of America. Respondent is the United
States Government.
DIRECTLY RELATED PROCEEDINGS
United States of America v. James T. Gersky, Record
No. 18-4702, United States Court of Appeals for the
Fourth Circuit. Judgment entered June 1, 2020.
United States of America v. James T. Gersky, Record
No. 2:15-CR-00799, United States District Court for
the District of South Carolina at Charleston.
Judgment entered August 29, 2018.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ............... i
PARTIES TO THE PROCEEDING ........................... ii
DIRECTLY RELATED PROCEEDINGS .................. ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ....................................... v
OPINIONS BELOW ................................................... 1
STATEMENT OF JURISDICTION ........................... 2
STATUTORY AND CONSTITUTIONAL
AUTHORITY .............................................................. 3
STATEMENT OF THE CASE ................................... 4
REASONS FOR GRANTING THE PETITION ....... 11
I.

This Court Must Provide Guidance to
District Courts In Accordance With Its
Precedent .................................................. 11
A.

II.

The district court’s questioning,
and the appellate court’s finding,
was in violation of this Court’s
decisions in Mitchell v. United
States and Estelle v. Smith ............ 12

The Decision Below Is Wrong .................. 14
A.

The District Court Erred When
It Found That Mr. Gersky Had
Sexual Contact With Minors ......... 20

iv
B.

The District Court Violated Mr.
Gersky’s Due Process Rights
When It Relied On Information
to Sentence Mr. Gersky Without
Giving Him a Fair Opportunity
to Respond ...................................... 23

CONCLUSION ......................................................... 26
APPENDIX:
Unpublished Opinion of
The United States Court of Appeals
For the Fourth Circuit,
entered June 1, 2020 ........................... 1a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered June 1, 2020 ......................... 16a
Judgment of
The United States District Court
For the District of South Carolina
entered September 21, 2018 ............. 17a
Transcript of Sentencing Hearing before
The Honorable Richard M. Gergel of
The United States District Court
For the District of South Carolina
on August 29, 2018 ............................ 31a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Doe v. United States,
487 U.S. 201 (1988) ........................................ 19
Estelle v. Smith,
451 U.S. 454 (1981) ...................... 11, 12, 13, 14
Minnesota v. Murphy,
465 U.S. 420 (1984) ........................................ 11
Mitchell v. United States,
526 U.S. 314 (1999) ...................... 11, 12, 13, 14
United States v. Cox,
No. 93-5922, 1994 U.S. App. LEXIS 18305
(4th Cir. July 20, 1994) .................................. 24
United States v. Grubbs,
585 F.3d 793 (4th Cir. 2009) .......................... 20
United States v. Horton,
693 F.3d 463 (4th Cir. 2012) .......................... 21
United States v. Inglesi,
988 F.2d 500 (4th Cir. 1993) .......................... 24
United States v. Jones,
31 F.3d 1304 (4th Cir. 1994) .......................... 21
United States v. Sellers,
512 F. App’x 319 (4th Cir. 2013).................... 21
United States v. Taylor,
368 F. App’x 350 (4th Cir. 2010).................... 21

vi
United States v. Thiam,
576 F. App’x 132 (4th Cir. 2014).................... 13
United States v. Watts,
519 U.S. 148 (1997) ........................................ 21
CONSTITUTIONAL PROVISIONS
U.S. CONST. Amend. V ...................................... passim
STATUTES
18 U.S.C. § 2251(a) ..................................................... 4
18 U.S.C. § 2251(e)3 ................................................... 4
18 U.S.C. § 2252(a)(2) ................................................. 4
18 U.S.C. § 2252(b)(1) ................................................. 4
18 U.S.C. § 3553(a) ................................................... 20
18 U.S.C. § 3553(a)(1) ................................................. 5
28 U.S.C. § 1254.......................................................... 2
SENTENCING GUIDELINES
U.S.S.G. § 5G1.2(b) ..................................................... 4

1
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Fourth Circuit in docket number 184702 was issued on June 1, 2020, and it is
unpublished. United States v. Gersky, 816 F. App’x
772 (4th Cir. 2020). The judgment entry of the United
States District Court for the District of South
Carolina at Charleston was entered on August 29,
2018, and it is not published.

2
STATEMENT OF JURISDICTION
This Court has jurisdiction to review a writ of
certiorari under 28 U.S.C. § 1254 because Mr. Gersky
was convicted of an offense against the laws of the
United States, and appealed his conviction in the
United States Court of Appeals for the Fourth Circuit.
The appellate court entered its order denying Mr.
Gersky’s appeal on June 1, 2020. On March 19, 2020,
this Court issued an order extending the deadline to
file any petition for a writ of certiorari to 150 days
from the date of the lower court judgment.

3
STATUTORY AND
CONSTITUTIONAL AUTHORITY
The Fifth Amendment to the United State
Constitution provides:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment of
a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia,
when in actual service in time of War or
public danger; nor shall any person be
subject for the same offence to be twice
put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived
of life, liberty, or property, without due
process of law; nor shall private property
be taken for public use, without just
compensation.

4
STATEMENT OF THE CASE
Pursuant to a plea agreement, Mr. Gersky
entered a guilty plea on October 25, 2017 to Count
2, Conspiracy to Produce Child Pornography in
violation of 18 U.S.C. § 2251(a) and 18 U.S.C.
§ 2251(e)3, and to Count 3, Conspiracy to Receive and
Distribute Child Pornography in violation of 18
U.S.C. § 2252(a)(2), 18 U.S.C. § 2252(b)(1) of the
Superseding Indictment. (App. 17a). Mr. Gersky’s
offense involved six co-defendants who used the
website “Sekretchat.net,” a website devoted to
creating and sharing child sexually abusive material.
(App. 3a.) Mr. Gersky was never accused by the
government of ever having any direct contact with
minors, and the factual basis for his guilty plea to
Counts 2 and 3 did not involve any direct contact with
minors. Mr. Gersky’s statutory minimum for Count 2
was 15 years and a maximum of 30 years. Mr.
Gersky’s statutory minimum for Count 3 was 5 years
and a maximum of 20 years. At a total offense level
of 43 and criminal history level I, Mr. Gersky’s
guidelines were calculated at life imprisonment. (App.
39a.) Because the statutorily authorized maximum
sentences of 240 months for Count 2 and 360 months
for Count 3 was less than the guideline range of life,
Mr. Gersky’s guideline range was 600 months,
calculated by consecutive sentencing or “stacking” of
the statutory maximum sentences under U.S.S.G.
§ 5G1.2(b). Id.
On August 29, 2018, the district court
sentenced Mr. Gersky to 360 months’ imprisonment.
(App. 76a.) The district court based its sentence on a
finding that Mr. Gersky was an “actor” meaning that
Mr. Gersky had direct sexual contact with minors.

5
The court made this finding based on Mr. Gersky’s
statements during the sentencing hearing and from
chat logs with his co-defendants while using
“Sekretchat.” The government presented no evidence
that Mr. Gersky ever had sexual contact with minors.
The district court considered Mr. Gersky’s alleged and
unproven contact with minors under 18 U.S.C.
§ 3553(a)(1), as facts demonstrating the history and
characteristics of Mr. Gersky. (App. 80a.) Mr. Gersky
filed a timely notice of appeal.
The creators of Sekretchat.net launched their
website on July 22, 2014, which was only accessible
by approved members who had a username and
password for the website. Generally, the website
operated as a chat room for members to discuss
enticing minors to engage in sexually explicit conduct
on web camera, provided members tools to enhance
their abilities to target vulnerable minors, and
provided a vault to share child-pornography, some of
which they created amongst themselves. Members
posted links in the chat room to minor victims’ social
media profiles so others could locate and encourage
them to engage in sexually explicit conduct on web
camera. They also let other members know when they
uploaded a video to the vault by posting in the chat
room. Sekretchat was shut down on or about April 23,
2015.
Chat logs show that Mr. Gersky was active on
Sekretchat from November 11, 2014 to February 17,
2015 and from April 4, 2015 to April 21, 2015. Mr.
Gersky assumed the name “Hesh” on Sekretchat,
which he used to chat with other Sekretchat
members, where he discussed targeting minor girls on
social media, enticing those minor girls to engage in

6
sexually explicit conduct on camera, and uploading
videos of minor girls engaging in sexually explicit
conduct to the Sekretchat Vault. Specifically, Mr.
Gersky used videos of two minor girls as his “loops” in
an effort to convince underage girls that he was also
an underage girl. He streamed the videos of the
minors engaging in sexual activity in an effort to
encourage victims to do the same. While chatting with
Sekretchat members, Mr. Gersky made statements
that were knowingly untrue and designed to convince
fellow members that he was part of the group, and
explained to the district court that: “I was once again
talking myself up in a world of people who concerned
themselves with underage girls.” (App. 56a.)
Despite his chats, during the course of the
investigation
and
prosecution,
Mr.
Gersky
consistently maintained that he never actually
touched a minor, and had only said so online in a
misguided attempt to establish credibility with others
active on the site. Further, the government, despite
an extensive investigation and search of Mr. Gersky’s
electronic devices, never uncovered a single instance
where Mr. Gersky had touched a minor, nor was there
any assertion in the presentence report that Mr.
Gersky “had sex with underage kids.” (App. 48a.)
At sentencing, the district court separated the
defendants into two categories: “lookers” and “likely
actors,” with the latter receiving substantially higher
sentences. (App. 54a.) A looker was a member that
merely participated online, while an “actor” directly
touched a minor. Mr. Gersky’s counsel argued that
Mr. Gersky was not an actor and there was no
evidence to suggest that Mr. Gersky was an actor,
other than his completely unsupported chats made

7
online. (App. 51a.) Mr. Gersky’s counsel argued that
the government could not meet its burden to show
that Mr. Gersky was an actor because “there was no
assertion in the PSR that he had sex with underage
kids.” (App. 48a.) Indeed, the evidence showed
conclusively that “he did not have sex with underage
children. He [only] bantered that he did.” (App. 49a.)
The district court told Mr. Gersky’s counsel
that it was unsure whether Mr. Gersky was “looker”
or an “actor,” and he would decide that issue based on
Mr. Gersky’s – not his counsel’s – “response” to
questioning by the Court:
I will tell you that a critical question is,
is he in the category of a likely actor, or
is he in category of a looker. Okay? I
mean that is an important feature. And
my determination of that is going to turn
on your client’s response. With all due
respect to you, Mr. Adams, this is your
client that made the statements, he
needs to address them.
(App. 54a., emphasis added)
The district court told Mr. Gersky that “which
pot[] he falls into” was going to depend on whether he
was credible in his responses. Id. With no choice but
to respond to direct questioning by the Court, Mr.
Gersky testified that, “I have never in my entire life
had sexual conduct with anyone under the legal age
[of consent].” (App. 55a.) The Court then questioned
Mr. Gersky about his sex life:

8
The Court:
So
let’s
understand what your denial is. Have
you [ever] had sex with any females
under 18 years old?
The Defendant:
I believe I had
sex with one female 17 years of age,
when I was approximately 29 years old
or possibly 30.
The Court:
And did you
meet her on Sekretchat?
The Defendant:

No, I did not.

The Court:
happen to meet her?

How did you

The Defendant:
dating website.

This was on a

The Court:
You stated on
January 11, 2015, “I ran through a
string of 15 to 17 year olds last year
before I got a more age appropriate
girlfriend.” What was that referring to?
The Defendant:
Your Honor,
that was hyperbole. I was once again
talking myself up in a world of people
who
concerned
themselves
with
underage girls. On the life of anyone
who has ever cared about me, I did not,
quote unquote “run through a string of
15 to 17-year-old girls.” There was one
girl who I believe was 17 years old, who
told me she was 17 years old. Outside of

9
that, I have never, as an adult, had sex
with anyone under the age of 18.
(App. 55a-56a.)
The Court stated that it had “to assess [Mr.
Gersky’s] credibility here” prior to determining
whether he had sex with someone younger than the
age of consent. Id. at p. 181. Although the Court
found that Mr. Gersky “lied” and was “deceptive”
while chatting with victims about who he was and
what he had done, he took as true his statements that
he had girlfriends under the age of 16 when chatting
on the same site. (App. 75a.) The Court relied on Mr.
Gersky’s responses to the Court’s cross examination
noting that “[h]e seemed unusually knowledgeable
regarding the age of consent, the subtleties of it,
including here when I questioned him.” Id.
Ultimately, despite the lack of evidence to
support its conclusion, the district court held that “I
find it most likely that he did have sex with girls
under 16, under the age of 16, and that his statements
were credible when he stated he did.” Id.
That determination from the district court was
the deciding factor in its decision not to vary
downward further than the 360 month sentence: “I’ve
considered the history and characteristics of this
defendant. He had no prior criminal history. But it is
very clear to me, as I previously stated in my finding,
that he was actively engaged in contact with underage
children, as well as engaged in this predatory
conduct.” (App. 80a, emphasis added.)
In handing down its 360 month sentence, the
district court created an unwarranted disparity

10
between Mr. Gersky’s sentence and that of his codefendants, nearly all of whom received the same or a
lesser sentence for the same, and in some cases, more
egregious offense conduct. Mr. Gersky, in his plea
agreement, agreed to waive his right to contest the
sentence on direct appeal.
Mr. Gersky appealed his sentence to the United
States Court of Appeals for the Fourth Circuit. The
appellate court affirmed Mr. Gersky’s sentence,
holding that Mr. Gersky’s statements to the district
court, given in response to the district court’s
questions, were “neither compelled nor selfincriminating.” (App. 11a.) The court held that
because Mr. Gersky was not ordered to speak, and did
not invoke his right against self-incrimination, he was
not coerced to speak. The court further held that the
district court did not err in relying on Mr. Gersky’s
chat logs statements in concluding that he had had
sexual contact with minors, in contradiction to his
statements in court that he had not, because he had
previously lied to law enforcement about his online
identity and activities.

11
REASONS FOR GRANTING THE PETITION
Mr. Gersky now seeks further review in this
Court and offers the following reasons why a writ of
certiorari is warranted.
I.

This Court Must Provide Guidance to
District Courts In Accordance With Its
Precedent.

The district court forced Mr. Gersky to testify
during his sentencing hearing regarding his prior
sexual activity, in violation of his constitutional right
against self-incrimination, and in violation of this
Court’s precedent. That action is directly contrary to
this Court’s holdings in in Mitchell v. United States
and Estelle v. Smith. The Fifth Amendment’s selfincrimination clause provides that no person “shall be
compelled in any criminal case to be a witness against
himself.” U.S. Const. Amend. V. This prohibition “not
only permits a person to refuse to testify against
himself at a criminal trial in which he is a defendant,
but also privileges him not to answer official
questions put to him in any other proceeding, civil or
criminal, formal or informal, where the answers
might incriminate him in future criminal
proceedings.” Minnesota v. Murphy, 465 U.S. 420, 426
(1984) (internal quotation marks omitted). This Court
held previously that a defendant retains this privilege
at his sentencing hearing, and that (“where the
sentence has not yet been imposed a defendant may
have a legitimate fear of adverse consequences from
further testimony.”) See Mitchell v. United States, 526
U.S. 314, 321 (1999). This Court also held that the
Fifth Amendment protects against a defendant being
forced to prove an element of the prosecution’s case.

12
See Estelle v. Smith, 451 U.S. 454, 462 (1981)(“[t]he
essence of this basic constitutional principle is the
requirement that the State which proposes to convict
and punish an individual produce the evidence
against him by the independent labor of its officers,
not by the simple, cruel expedient of forcing it from
his own lips”) (emphasis in original) (internal
quotations and citations omitted).
The actions of the district court, and the
decision of the circuit court to allow such action, are
in direct conflict with this Court’s previously set
precedent regarding forced testimony at sentencing.
This Court should grant this petition because the
district court left Mr. Gersky without a choice as to
whether he testified at his sentencing hearing, and
the appellate court ignored the compelling and selfincriminating nature of Mr. Gersky’s testimony.
Further, the district court punished Mr. Gersky for
having sexual contact with minors, despite any
evidence to support that conclusion, and violated Mr.
Gersky’s due process when it sentenced him based on
information that it did not disclose to Mr. Gersky.
By remanding the lower court’s decision for
resentencing, this Court can provide necessary
guidance to district courts, so that a defendant may
not be forced to incriminate himself at sentencing.
A.

The district court’s questioning,
and the appellate court’s finding,
was in violation of this Court’s
decisions in Mitchell v. United
States and Estelle v. Smith.

The district court’s ultimatum on testimony,
followed by its prosecution-aided cross examination,

13
stripped Mr. Gersky of his right to remain silent. A
defendant’s right to remain silent extends to all
phases of court proceedings, and a defendant does not
simply forgo that right once he has entered a guilty
plea. See, e.g., Mitchell v. United States, 526 U.S. 314,
327 (1999) (holding that “a defendant may assert the
privilege against self-incrimination in sentencing
proceedings); United States v. Thiam, 576 F. App’x
132, 134 (4th Cir. 2014) (holding that a defendant
retains his privilege against self-incrimination at
sentencing). Because a defendant’s words at
sentencing may have an impact on the sentence he
receives, his privilege against self-incrimination must
be upheld. Mitchell at 326; (“where the sentence has
not yet been imposed a defendant may have a
legitimate fear of adverse consequences from further
testimony.”) Further, the Fifth Amendment protects
against a defendant being forced to prove an element
of the prosecution’s case. See Estelle v. Smith, 451
U.S. 454, 462 (1981)(“[t]he essence of this basic
constitutional principle is the requirement that the
State which proposes to convict and punish an
individual produce the evidence against him by the
independent labor of its officers, not by the simple,
cruel expedient of forcing it from his own lips”)
(emphasis in original) (internal quotations and
citations omitted).
The district court did not advise Mr. Gersky of
his right to remain silent, allow his attorney to speak
on his behalf, or indicate to him that he had the option
to refuse to answer the district court’s questions.
Instead, the district court made implicit threats of
greater punishment if he did not testify about the
“critical” issue of whether or not Mr. Gersky had had
sexual contact with minors.

14
Mr. Gersky was presented with the Hobson’s
choice of refusing to comply with the district court’s
order and have a negative inference apply, or to
potentially incriminate himself and give information
that would negatively affect his sentence. The district
court used the information it obtained during its
examination of Mr. Gersky against him to make a
finding that he had previously had sex with someone
under the age of 16 and that he lied about that fact
during his sentencing hearing. This line of
questioning first violated this Court’s holding in
Mitchell v. United States, when the district court left
him with no choice but to answer questions, even
though he had the privilege against selfincrimination. Second, the district court violated
Estelle v. Smith, and forced Mr. Gersky to produce the
evidence the district court needed to punish him,
when the government could not present any evidence
that Mr. Gersky had had sexual contact with minors.
The court sentenced Mr. Gersky to at least ten extra
years in prison because he deemed him an “actor,” a
determination that was decided, at least in part, by
Mr. Gersky’s answers to the district court’s questions.
The district court’s action violated Mr. Gersky’s Fifth
Amendment privilege, and it abused its discretion
when forcing him to testify.
II.

The Decision Below Is Wrong.

Here, the “critical question” when fashioning
an appropriate sentence from the district court’s point
of view was whether Mr. Gersky was an “actor,” or
simply a “looker.” (App. 54a.) The district court noted
that he had read a series of online chats made by Mr.
Gersky supplied by the government during which Mr.
Gersky bragged to others online that he had

15
interacted inappropriately with minors. (App. 49a.)
The court expressed “concern” that those chats could
actually be true. Id. Counsel adamantly denied that
Mr. Gersky ever did any of the things he said online
and the proof, or lack thereof, showed that. (App. 49a52a.)
The district court, unsatisfied with Mr.
Gersky’s counsel’s denials the government’s lack of
evidence, indicated “would prefer to hear it from [Mr.
Gersky] and not [his lawyer].” (App. 50a.) In other
words, Mr. Gersky would have to provide testimony
on that specific subject. Counsel for Mr. Gersky
attempted in vain to assert his client’s position that
he was not a pedophile, never accused of pedophilia
and the evidence before the Court did not support a
finding that he was. (App. 49a-52a.) The district
court, however, refused to consider counsel’s denials
on behalf of his client and gave Mr. Gersky an
ultimatum:
I will tell you that a critical question is,
is he in the category of a likely actor, or
is he in category of a looker. Okay? I
mean that is an important feature. And
my determination of that is going to turn
on your client’s response. With all due
respect to you, Mr. Adams, this is your
client that made the statements, he
needs to address them.
(App. 54a, emphasis added.)
Faced with no alternative, Mr. Gersky agreed
to speak on his own behalf and his attorney sat down.
Id. Prior to speaking, the Court told Mr. Gersky that
“you kind of know where I’m coming from,” which Mr.

16
Gersky assumed meant that he should answer all the
Court’s questions, and if he did not, he would receive
a greater sentence. Id.
During his testimony, Mr. Gersky denied that
he had ever physically interacted with any minors on
Sekretchat or having anything to do with his case.
(JA: Sent. Tr. p. 163.) He acknowledged that he said
things online that were untrue in relation to minors,
and explained that he did so trying to gain the
confidence of his co-defendants. Id. Unsatisfied with
Mr. Gersky’s denial and explanation, the district
court questioned Mr. Gersky and asked him whether
he had had sex with someone under the age of 18,
even if not in relation to this case. (App. 55a-56a.) Mr.
Gersky noted that he had a prior consensual sexual
relationship with someone who was 17 that he had
met on a dating website, completely unrelated to this
case. (App. 56a.) Mr. Gersky also admitted that he
knew that the legal age of consent in Michigan, where
Mr. Gersky lived, is 16. (App. 55a.)
The district court then turned to the
government for additional information it could use
against Mr. Gersky during its questioning. (App. 58a59a.)
As Mr. Gersky’s counsel previously had
indicated, despite the government’s extensive
investigation, the government had no evidence
corroborating the truthfulness of the statements
found in the chat logs:
The Court: Will
the
Government
respond to whatever evidence you have
regarding whether Mr. Gersky actually
had sex with underage girls versus, as

17
he states, it was mere hyperbole,
bragging to these other men.
The Government: Sure. So we don’t have
the text messages or anything that
[defense counsel], you know, suggested
might be corroborative of this…we
certainly don’t have it.
(App. 58a-59a.)
The government did, however, assist the court by
providing information that could be used to impeach
Mr. Gersky’s credibility. (App. 59a-67a.) After
obtaining ammunition for cross-examination, the
court turned back to Mr. Gersky to “ask [him] a couple
questions.” (App. 67a.)
During the Court’s second round of
questioning, Mr. Gersky acknowledged that he was
“given chopped up . . . videos” that he used when he
represented to victims that he was a teenage boy.
(App. 68a.) He also admitted that he initially denied
his online name to the FBI. (App. 67a-68a.) The Court
pounced on Mr. Gersky’s admissions to question his
denials:
So you lied to the FBI, you lied to your
victims, and you’re telling me – and I
have to decide whether you are lying to
your co-defendants [online] or to me.
That’s what I’ve got to decide, right?
(App. 68a.)
After the Court completed its questioning of
the defendant, it found that his testimony was not
credible and that it was “most likely he did have sex

18
with girls under 16, under the age of 16, and that his
[online] statements were credible when he stated he
did.” (App. 75a.) The court found that he had lied
online when chatting (except when talking about
having sex with girls under 16), lied to the FBI and
lied to the court during his testimony when he denied
having sex with underage girls. Id. The court found
that Mr. Gersky during his testimony “seemed
unusually knowledgeable regarding the age of
consent, the subtleties of it, including here where I
questioned him. And I thought his conduct was
avoiding, and [] he was not answering straight about
the age of consent.” (App. 75a.) The court did not pull
acceptance of responsibility or add obstruction of
justice guidelines to Mr. Gersky’s sentence.
The appellate court compounded the district
court’s error in finding that Mr. Gersky’s statements
were not compelled or self-incriminating. The
appellate court reasoned that because the district
court did not order Mr. Gersky to speak, and instead
told Mr. Gersky that it was his “own choice” to speak
and that the court would “prefer” to hear from Mr.
Gersky (App. 9a), his statements were not compelled.
The appellate court’s conclusion ignores the enormous
pressure placed upon Mr. Gersky, and the decision
the district forced him to make. He had two choices,
either of which could have resulted in a harsher
sentence. He could have asserted his Fifth
Amendment privilege, and risked the district court
sentencing him more harshly because of a perceived
lack of acceptance of responsibility or contrition. Or,
he could have responded to the district court’s line of
questioning, and risked the court sentencing him
more harshly based on any statements he made.
Feeling that he did not have the option to refuse to

19
answer the district court’s questions, he submitted to
the court’s examination. The district court did not
have to explicitly order Mr. Gersky to speak; its
statements that it would “prefer” to hear from Mr.
Gersky, and that he knew where the court was
“coming from” amounted to an order from the district
court. Few defendants at sentencing, if any, would
feel comfortable with asserting their Fifth
Amendment privilege in such a scenario, and with
angering the court responsible for determining their
punishment.
The appellate court further erred when it found
that Mr. Gersky’s statements were exculpatory,
rather than self-incriminating. To be protected by the
Fifth Amendment, the statement must “explicitly or
implicitly, relate a factual assertion or disclose
information” that incriminates. Doe v. United States,
487 U.S. 201, 210 (1988). The appellate court held
that Mr. Gersky’s statements “only countered record
evidence showing that he engaged in sexual activity
with minors under the age of consent,” and that the
district court’s questioning “did not elicit
incriminating statements in any real or substantial
way.” (App. 10a.) To the contrary, Mr. Gersky made
statements to the district court that the court then
used as support for its conclusion that he had sex with
minor victims. During questioning, Mr. Gersky stated
that he had had a relationship with a 17 year-old
woman, and that he never had “sexual conduct with
anyone under the legal age [of consent],” which he
knew in the state of Michigan to be 16 years old. (App.
55a.) The district court, in explaining its rationale for
finding that Mr. Gersky had sexual contact with
underage girls, stated that Mr. Gersky “seemed
unusually knowledgeable regarding the age of

20
consent, the subtleties of it, including here when I
questioned him. And I thought his conduct was
avoiding, and when he was not answering straight
about the age of consent.” (App. 75a) (emphasis
added.) Mr. Gersky’s answers in response to the
district court’s questions, although meant to be
exculpatory, served as incriminating evidence, which
the court then used to conclude that Mr. Gersky had
sex with underage victims in the course of his offense
conduct. This Court should vacate the district court’s
sentence so that Mr. Gersky can be sentenced without
consideration of his forced testimony.
A.

The District Court Erred When It
Found That Mr. Gersky Had Sexual
Contact With Minors.

The district court found that Mr. Gersky had
sexual contact with minor victims, and used that
unsupported finding to determine its sentence under
the 18 U.S.C. § 3553(a) factors. The district court
made clear that it considered its conclusion
paramount to its final sentence in regards to the
safety of the public and Mr. Gersky’s future
dangerousness, stating: “[whether Mr. Gersky had
sexual contact with minors] affects my judgment
under 3553(a) regarding the public from future crimes
of this defendant. That’s where it’s relevant.” (App.
59a).
A district court is not precluded entirely from
considering uncharged conduct when determining its
sentence. However, that conduct must be proven by a
preponderance of the evidence to be considered.
United States v. Grubbs, 585 F.3d 793, 799 (4th Cir.
2009) (“a sentencing court may consider uncharged

21
and acquitted conduct in determining a sentence, as
long as that conduct is proven by a preponderance of
the evidence”); See United States v. Watts, 519 U.S.
148, 157 (1997) (holding that “a jury’s verdict of
acquittal does not prevent the sentencing court from
considering conduct underlying the acquitted charge,
so long as that conduct has been proven by a
preponderance of the evidence”); United States v.
Jones, 31 F.3d 1304, 1316 (4th Cir. 1994) (holding
that a “defendant need not be convicted of the charges
constituting relevant conduct for him still to be held
accountable for them” when a sentencing court
determines the defendant’s sentence, as long as the
government “establish[es] the existence of these other
incidents by a preponderance of the evidence”).
Here, the district court relied largely on Mr.
Gersky’s unproven chats that he made while
committing the offense. This Court has previously
held that uncharged conduct can be considered for
sentencing calculations, but with the presence of
stronger evidence than in Mr. Gersky’s case. See
United States v. Taylor, 368 F. App’x 350, 353 (4th
Cir. 2010) (sworn testimony from witness who
testified that the defendant shot him, for which the
defendant was not charged, was used as relevant
conduct to enhance defendant’s sentence); United
States v. Sellers, 512 F. App’x 319, 330 (4th Cir. 2013)
(holding that the sworn testimony of two witnesses
who testified that the defendant murdered another
person, for which the defendant was not charged, was
enough to meet a preponderance of the evidence
standard, and could be scored as relevant conduct);
United States v. Horton, 693 F.3d 463, 474 (4th Cir.
2012) (finding that the defendant likely committed a
home invasion and murder one week after the offense

22
conduct, based on the extensive testimony from two
FBI agents.)
The appellate court held that the district court,
making a determination as to Mr. Gersky’s
credibility, did not err when it found it likely that Mr.
Gersky had sexual contact with minors. The district
court’s evaluation of Mr. Gersky’s credibility turned
on two factors, which the appellate court analyzed.
First, the district court noted that Mr. Gersky had lied
to his victims when he pretended to be a young girl in
order to entice the victims to make videos of
themselves, and had lied to law enforcement when he
initially denied being “Hesh” during the first law
enforcement interview. (App. 12a.) Second, the
district court noted that Mr. Gersky’s chat log
statements were made “at a time when he didn’t know
anyone was watching.” Id. The appellate court
deferred to the district court’s evaluation of Mr.
Gersky’s credibility, stating “the district court faced
two conflicting but plausible views of the evidence:
either Gersky had sexual contact with minors or he
lied about it in the chat logs. It considered the
available record evidence, which was incriminating,
and permitted Gersky to attempt to contravene it.
Although the district court found Gersky failed to do
so, that finding does not create clear error or provide
grounds for this Court to overturn its credibility
determination.” (App. 13a.)
The district court’s determination, and the
appellate court’s holding, was error because the
government did not prove that Mr. Gersky had sexual
contact with minors by a preponderance of the
evidence. The government’s sole evidence to support
its position were Mr. Gersky’s statements in chat logs,

23
that government admitted it could not corroborate,
despite its extensive investigation into Mr. Gersky’s
electronic devices: “we don’t have the text messages
or anything that [defense counsel], you know,
suggested might be corroborative of this, and that
that might somehow change his admission if we had
that. We certainly don’t have it.” (App. 59a.) Mr.
Gersky, during allocution, did not deny making the
statements, and provided the only plausible
explanation for why he made untrue statements in
chat logs: “I was once again talking myself up in a
world of people who concerned themselves with
underaged girls. On the life of anyone who has ever
cared about me, I did not, quote unquote, ‘run through
a string of 15- to 17-year-old girls.’” (App. 56a.)
At a time when he was not under oath and
chatting with members of Sekretchat, Mr. Gersky
made untrue statements to enhance his credibility to
the Sekretchat community, so that he could
participate in the website’s activities. When he was
under oath at sentencing, he testified truthfully that
he had never had sex with an underaged female. His
prior statements, alone, are not enough to prove that
he actually had sexual contact with minor females.
B.

The District Court Violated Mr.
Gersky’s Due Process Rights When
It Relied On Information to
Sentence Mr. Gersky Without
Giving Him a Fair Opportunity to
Respond.

During sentencing, the district court stated
that it had consulted with the sentencing judges in
different districts who had sentenced other

24
defendants in the “Sekretchat” cases, and indicated
that he used information regarding the sentences in
those cases to determine the sentence for Mr. Gersky:
In a perfect world, I would have had
them all and I would have – and I could
make
individual
assessments.
I
certainly will consider every one of
these…it caused me to go back inasmuch
as I could to reach out to other judges to
try to get this information. And I’ve done
my best to get it. (App. 48a.)
The district court’s use of this information, to
which Mr. Gersky had no opportunity to review or
challenge, was a violation of his right to due process.
See United States v. Inglesi, 988 F.2d 500, 502 (4th
Cir. 1993) (“[d]ue process might also be denied by
sentencing on information whose accuracy a
defendant has not had a fair opportunity to
challenge”); United States v. Cox, No. 93-5922, 1994
U.S. App. LEXIS 18305, at *3 (4th Cir. July 20, 1994)
(“[d]ue process forbids a sentence based on
information whose accuracy a defendant has not had
a fair opportunity to challenge”) (internal quotations
and citations omitted).
The district court, after indicating that it had
relied on information from other sentencing judges in
order to determine the sentence for Mr. Gersky, did
not give Mr. Gersky the opportunity to review or
challenge that information. Indeed, the district court
did not even specify which information it had relied
on, making it impossible for Mr. Gersky to evaluate
its fairness at the time of sentencing. This reliance on

25
other information affected Mr. Gersky’s substantial
rights, and was plain error.
The appellate court held that there was no
error because the district court made “an
individualized sentencing assessment without
improperly considering factors from Gersky’s codefendants’ sentencing determinations.” (App. 14a.)
Although the district court stated that it would
sentence Mr. Gersky based on his individual conduct
(App. 14a-15a), the district court still obtained
information to inform its decision as to punishment,
and did not give him the opportunity to review it. Mr.
Gersky cannot know what information influenced the
district court’s decision, because the court did not
disclose it. That failure was a violation of due process.

26
CONCLUSION
For the reasons stated above, the petition for
writ of certiorari should be granted.
Dated: October 29, 2020
Respectfully submitted,
Matthew G. Borgula
Rachel L. Frank
Counsel of Record
SPRINGSTEAD BARTISH
BORGULA & LYNCH, PLLC
60 Monroe Center St. NW, #500
Grand Rapids, Michigan 49503
(616) 458-5500
matt@sbbllaw.com
rachel@sbbllaw.com
Attorneys for Petitioner
James Gersky

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Unpublished Opinion of
The United States Court of Appeals
For the Fourth Circuit,
entered June 1, 2020...................................... 1a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered June 1, 2020.................................... 16a
Judgment of
The United States District Court
For the District of South Carolina
entered September 21, 2018 ........................ 17a
Transcript of Sentencing Hearing before
The Honorable Richard M. Gergel of
The United States District Court
For the District of South Carolina
on August 29, 2018 ...................................... 31a

1a
[ENTERED: June 1, 2020]
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4702
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JAMES T. GERSKY, a/k/a Hesh,
Defendant - Appellant.
Appeal from the United States District Court for the
District of South Carolina, at Charleston. Richard M.
Gergel, District Judge. (2:15-cr-00799-RMG-7)
Submitted: May 22, 2020

Decided: June 1, 2020

Before AGEE, WYNN, and QUATTLEBAUM, Circuit
Judges.
Affirmed in part and dismissed in part by
unpublished opinion. Judge Wynn wrote the opinion,
in which Judge Agee and Judge Quattlebaum joined.

2a
Matthew
G.
Borgula,
Rachel
L.
Frank,
SPRINGSTEAD BARTISH BORGULA & LYNCH,
Grand Rapids, Michigan; Christopher W. Adams,
ADAMS & BISCHOFF, P.C., Charleston, South
Carolina, for Appellant. Brian A. Benczkowski,
Assistant Attorney General, Matthew S. Miner,
Deputy Assistant Attorney General, Thomas E.
Booth, Lauren E. Britsch, Austin M. Berry, Criminal
Division, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C.; Sherri A. Lydon, United
States Attorney, Columbia, South Carolina, Dean H.
Secor, Assistant United States Attorney, OFFICE OF
THE UNITED STATES ATTORNEY, Charleston,
South Carolina, for Appellee.
Unpublished opinions are not binding precedent in
this Circuit.
WYNN, Circuit Judge:
Defendant-Appellant James Gersky appeals
his 360-month sentence, arguing that the district
court’s conduct at the sentencing hearing violated due
process and his Fifth Amendment right against
compelled self-incrimination, and that these
constitutional claims are not subject to his appellate
waiver. Finding no constitutional violations, we
affirm in part and dismiss in part.
I.
A.
From November 2014 to April 2015, Gersky, a
man in his thirties, participated in Sekretchat.net, a
website that operated as an online platform for

3a
members to target and entice minors to perform
sexually explicit conduct on social media websites
such as YouNow, Kik, Instagram, and Snapchat.
Sekretchat members posted links to minors’ profiles
on these social media sites to a Sekretchat chatroom.
Members would then find and chat with the minors
on those sites and encourage them to perform
sexually explicit acts on live streaming video. The
members would record footage of those acts, upload
them to a cloud storage site, and post links and
thumbnail images of the videos in a “Vault” page on
Sekretchat, where other members could download
them.
Gersky, acting under the alias “Hesh,” was a
core member of Sekretchat’s approximately 40 users.
Gersky chatted with other members about targeting
underage girls, used videos of two minor girls engaged
in sexual activity to impersonate a teenager to his
victims, enticed underage girls to perform sex acts on
video, and uploaded recordings of that activity to the
Vault.
As relevant to this appeal, Gersky also made a
number of statements in the Sekretchat chatroom
regarding his sexual activity with minors, including
those under the age of consent of 16 years in his home
state of Michigan: “this 16 y/o I used to f*** last year”;
“the bulk of the younger ones i f*** are 16-17 .. which
is perfectly legal here”; “i ran through a string of 1517 year olds last year”; “i’m pretty sure i accidentally
made a 14 y/o my f*** buddy last year”; “I think I
accidentally had sex with a 14-15 year old a few times
last year”; “when i went to meet that ~15 year old for
the first time I almost s*** my pants.” J.A. 104.

4a
Gersky also stated that he avoided getting
“Hansened”—a reference to the television show “To
Catch a Predator,” hosted by Chris Hansen—by
“never mention[ing] sex while talking to [young
girls].” Id. Gersky likewise claimed to avoid detection
by “never, ever stat[ing] that we’re hanging out to
have sex online or in text.” Id.
B.
Gersky and seven co-conspirators were charged
with various child pornography offenses. Gersky pled
guilty to conspiracy to produce child pornography, in
violation of 18 U.S.C. § 2251(a), and conspiracy to
receive and distribute child pornography, in violation
of 18 U.S.C. § 2252(a)(2). His plea included a knowing
and intelligent waiver of “the right to contest either
the conviction or the sentence in any direct appeal or
other post-conviction action,” except for “claims of
ineffective assistance of counsel, prosecutorial
misconduct, or future changes in the law that affect
[his] sentence.” J.A. 44.
The government recommended a Guidelines
sentence of 600 months for Gersky in part because of
his chat statements claiming he had sex with
underage minors. At the sentencing hearing, Gersky
argued that the district court should consider the
lesser sentences given to his co-conspirators. Gersky
likewise requested the district court consider
sentences imposed in similar cases. The district court
repeatedly stated that it would make an
individualized determination as to Gersky.
The district court also noted that Gersky’s chat
statements were particularly troublesome for its
analysis of his future dangerousness. Defense counsel

5a
claimed that Gersky’s statements were false boasts to
enhance his status with other Sekretchat members.
In response, the district court stated:
I have pulled the logs on each of those
comments to see the context of them.
And I’m glad to address that [to] your
client frankly, you know, he’s his own
choice whether he wishes to speak, but
having you tell me he didn’t have sex, is
inconsistent
with
his
own
contemporaneous statements that he
did, and he described how he
manipulated so he wouldn’t get caught.
J.A. 156-57 (emphasis added).
Defense counsel reiterated that Gersky’s chat
statements were untrue. The district court stated, “I
would prefer to hear it from your client and not you,”
J.A. 158 (emphasis added), and “what I want you to
afford your client [is] the opportunity [] to address
that,” J.A. 159 (emphasis added). Defense counsel
responded, “I believe Mr. Gersky would like to
address the Court.” J.A. 160 (emphasis added). The
district court then noted that Gersky needed to
explain his statements as his sentence would turn
largely on whether he was in the category of a “likely
actor” (someone who actually had sex with underage
minors) or a “looker” (someone who only viewed
sexually explicit material online). J.A. 161.
Gersky then addressed the district court,
stating: “I would be willing to submit to any line of
questioning any way to prove to you whatsoever that
I have never in my entire life had sexual conduct with
anyone under the legal age.” J.A. 162 (emphasis

6a
added). The district court questioned Gersky about
his various chat statements and Gersky claimed each
was merely an instance of him bragging and engaging
in hyperbole with other members of Sekretchat.
During that line of questioning, Gersky admitted that
he claimed to refrain from discussing sex in online
conversations with minors he planned to meet in
order to avoid being “Hansened.” J.A. 164.
The district court then directed the
government to provide whatever evidence it had of
Gersky’s actual sexual contact with underage girls.
The government stated that it had no corroborating
evidence and suggested one reason for that absence:
Gersky admittedly avoided discussing sex while
chatting with his alleged victims online. The
government also noted that Gersky had lied in the
past by denying, until his guilty plea, that he was the
person behind the “Hesh” alias on Sekretchat.
The district court then asked Gersky whether
he had lied to the police (by claiming he was not Hesh)
and to his victims (by impersonating a teenager).
Gersky admitted that he had. The district court noted
that Gersky’s conduct differed from many pedophiles,
in that he actively sought out and engaged children in
order to induce them to commit sex acts. The court
continued, “I find most likely he did have sex with
girls under 16, under the age of 16, and that his
statements were credible when he stated that he did.”
J.A. 183. Based on those findings, the district court
concluded that Gersky posed a significant danger to
the community and imposed a prison term of 360
months.

7a
Gersky timely appealed his sentence, claiming
that: (1) the district court compelled him to speak at
the sentencing hearing, in violation of his Fifth
Amendment right against self-incrimination; (2) as a
result of that allegedly compelled testimony, the
district court clearly erred in finding that he actually
had sex with underage minors; (3) the district court
violated his due process rights by using information
from comparable cases in sentencing without giving
him an opportunity to contest it; and (4) the district
court created an unwarranted sentencing disparity
between Gersky and his co-defendants. Gersky also
contends that his claims are exempt from his
appellate waiver.
II.
A.
We begin with the waiver. Gersky does not
claim his appellate waiver was unknowing or
unintelligent, see United States v. Thornsbury, 670
F.3d 532, 537 (4th Cir. 2012), but instead argues that
his claims flow from alleged constitutional violations.
According to Gersky, a criminal defendant may not
waive the right to appeal constitutional deficiencies in
sentencing.We do not address this contention
because, as discussed below, we find no constitutional
violation.
B.
1.
Gersky’s first constitutional claim is that his
testimony at the sentencing hearing—in which he
claimed that his chat statements regarding contact

8a
sexual activity with underage girls were false—
violated his Fifth Amendment right against
compelled self-incrimination. Our review is de novo.
See United States v. Lara, 850 F.3d 686, 690 (4th Cir.
2017).
The Fifth Amendment’s self-incrimination
clause provides that no person “shall be compelled in
any criminal case to be a witness against himself.”
U.S. Const. amend. V. This prohibition “not only
permits a person to refuse to testify against himself
at a criminal trial in which he is a defendant, but also
‘privileges him not to answer official questions put to
him in any other proceeding, civil or criminal, formal
or informal, where the answers might incriminate
him in future criminal proceedings.’” Minnesota v.
Murphy, 465 U.S. 420, 426 (1984) (quoting Lefkowitz
v. Turley, 414 U.S. 70, 77 (1973)). A criminal
defendant retains this right at his sentencing
hearing. That is, a sentencing court may not draw an
adverse inference from the defendant’s silence for
purposes of determining conduct related to the
underlying offense that is relevant to the sentencing
decision. See Mitchell v. United States, 526 U.S. 314,
329-30 (1999).1

Despite finding that the Fifth Amendment privilege applies to
factual inquiries that establish relevant conduct for sentencing,
the Supreme Court in Mitchell expressly declined to address
whether the privilege applies to other sentencing factors such as
lack of remorse or acceptance of responsibility. See 526 U.S. at
330. Although the parties dispute whether Mitchell requires the
privilege to be extended to the sentencing factor at issue in this
case—Gersky’s future danger to the community—we do not
reach the question because we find Gersky’s statements neither
compelled nor incriminating.

1

9a
However, the Fifth Amendment’s guarantee
against self-incrimination provides “only that the
witness not be compelled to give self-incriminating
testimony.” McKune v. Lile, 536 U.S. 24, 36 (2002)
(quoting United States v. Washington, 431 U.S. 181,
188 (1977)) (second emphasis added). The record
shows that Gersky’s statements to the court were
neither compelled nor self-incriminating.
As to compulsion, the district court noted that
it was Gersky’s “own choice” as to whether he
“wishe[d]” to speak, J.A. 156, stated that it would
“prefer” to hear from Gersky rather than counsel, J.A.
158, and stated that it wished to afford Gersky the
“opportunity” to address the court directly, J.A. 159.
At no point did the district court order Gersky to
speak. Nor did Gersky invoke his right against selfincrimination, despite being represented by counsel.
See Murphy, 465 U.S. at 427 (“The answers of . . . a
witness to questions put to him are not compelled
within the meaning of the Fifth Amendment unless
the witness is required to answer over his valid claim
of the privilege.” (collecting cases)). Indeed, defense
counsel represented that Gersky “would like to
address the Court,” J.A. 160, and Gersky himself
stated that he was “willing to submit to any line of
questioning” to prove that he had not had sex with
underage minors, J.A. 162.
Gersky nonetheless attempts to characterize
the district court as coercive, arguing that its
statement that his testimony would determine
whether he was sentenced as a “looker” or an “actor”
left him no choice but to speak. Gersky’s apparent
willingness to testify and failure to assert the Fifth

10a
Amendment testimonial privilege contravene this
claim.
As to self-incrimination, Gersky’s willingness
to testify is unsurprising because his statements to
the district court were exculpatory rather than
incriminating. For a statement to qualify for the
privilege against self-incrimination, it “‘must itself,
explicitly or implicitly, relate a factual assertion or
disclose information’ that incriminates.” United
States v. Sweets, 526 F.3d 122, 127 (4th Cir. 2007)
(quoting Doe v. United States, 487 U.S. 201, 210
(1988)). Gersky’s statements do not fit this standard
because they only countered record evidence showing
that he engaged in sexual activity with minors under
the age of consent.
Specifically, the district court was faced with
chat logs in which Gersky unambiguously claimed to
have had sex with underage minors. The district court
likewise had before it evidence showing that Gersky
had been dishonest with law enforcement. Had the
district court not questioned Gersky, it would have
only been able to determine Gersky’s sexual history
with minors based on that incriminating evidence.
Rather than do so, the district court gave Gersky an
opportunity to exculpate himself. Although it
ultimately found Gersky’s explanation of his chat
statements not credible, the district court’s
questioning did not elicit incriminating statements
“in any real and substantial way.” Id. at 128; see also
United States v. Doe, 465 U.S. 605, 614 n.13 (1984)
(“[A] party who wishes to claim the Fifth Amendment
privilege must be ‘confronted by substantial and real,
and not merely trifling or imaginary, hazards of
incrimination.’” (quoting Marchetti v. United States,

11a
390 U.S. 39, 53 (1968)) (internal quotation marks
omitted)); United States v. Thiam, 576 F. App’x 132,
134 (4th Cir. 2014) (per curiam) (evaluating the
district court’s questioning of a criminal defendant
and finding no Fifth Amendment violation because
the defendant denied criminal involvement and
“therefore did not make any incriminating
statements”). Indeed, Gersky does not specifically
explain how his statements at the sentencing hearing
incriminated him.
Accordingly, we find no Fifth Amendment
violation because Gersky’s statements at the
sentencing hearing were neither compelled nor
incriminating.
2.
Gersky next argues that the district court
improperly weighed the evidence, including his
testimony elicited via the alleged Fifth Amendment
violation, to find that he actually had sex with
underage girls. Because we find no Fifth Amendment
violation, Gersky’s arguments on this point are within
the scope of his appellate waiver.
Even if this claim were not waived, the district
court did not err. “We review the district court’s
factual findings at sentencing for clear error . . . .”
United States v. Caplinger, 339 F.3d 226, 233 (4th Cir.
2003). “If the district court’s account of the evidence
is plausible in light of the record viewed in its
entirety, the court of appeals may not reverse it even
though convinced that had it been sitting as the trier
of fact, it would have weighed the evidence
differently.” Anderson v. City of Bessemer City, N.C.,
470 U.S. 564, 573-74 (1985). Moreover, “[t]he district

12a
court’s credibility determinations receive ‘great
deference.’” United States v. Layton, 564 F.3d 330, 334
(4th Cir. 2009) (quoting United States v. Feurtado,
191 F.3d 420, 424 n.2 (4th Cir. 1999)). Further, “a
sentencing court may consider uncharged and
acquitted conduct in determining a sentence, as long
as that conduct is proven by a preponderance of the
evidence.” United States v. Grubbs, 585 F.3d 793, 799
(4th Cir. 2009).
Gersky claims that the chat logs do not rise to
a preponderance standard and that the district court’s
credibility determination improperly weighed his
allegedly compelled testimony.
First, the district court did not solely rely on
the content of Gersky’s chat statements to satisfy the
preponderance standard. Its finding that those
statements were “most probably true” was of course
based in part on their content. J.A. 183. But the
district court also noted that Gersky had previously
lied to law enforcement and his victims and had
claimed to avoid mentioning sexual contact in any
traceable manner in order to avoid being “Hansened.”
Second, the district court explained why it gave
less weight to Gersky’s statements at the sentencing
hearing: because, unlike those statements, his chat
statements were made “at a time he didn’t know
anyone was watching.” J.A. 182. We see no reason to
revisit that credibility determination under our
deferential standard of review. See Layton, 564 F.3d
at 334.
Put simply, the district court faced two
conflicting but plausible views of the evidence: either
Gersky had sexual contact with minors or he lied

13a
about it in the chat logs. It considered the available
record evidence, which was incriminating, and
permitted Gersky to attempt to contravene it.
Although the district court found Gersky failed to do
so, that finding does not create clear error or provide
grounds for this Court to overturn its credibility
determination. See Anderson, 470 U.S. at 574 (“Where
there are two permissible views of the evidence, the
factfinder’s choice between them cannot be clearly
erroneous.”).
Accordingly, we find that the district court did
not clearly err in crediting Gersky’s chat statements.
C.
Gersky’s other constitutional claim is that the
district court violated his due process rights by using
sentencing information from his co-conspirators
without notifying him of the specific information it
relied upon. See United States v. Inglesi, 988 F.2d 500,
502 (4th Cir. 1993) (“Due process might also be denied
by sentencing on information whose accuracy a
defendant has not had a fair opportunity to challenge
. . . .”).
Because Gersky did not object to the district
court’s alleged consideration of other evidence at
sentencing, this Court reviews for plain error. See
United States v. Greene, 704 F.3d 298, 303-04 (4th Cir.
2013). “Under the plain error standard, [Gersky] has
the burden to show that: (1) there was error; (2) the
error was plain; and (3) the error affected his
substantial rights.” United States v. Cowden, 882 F.3d
464, 475 (4th Cir. 2018). If Gersky makes this
showing, the Court may exercise its discretion to
correct the error only if the error “seriously affect[s]

14a
the fairness, integrity[,] or public reputation of
judicial proceedings.” Id. (quoting United States v.
Olano, 507 U.S. 725, 736 (1993)) (alterations in
original).
Gersky’s argument fails because there was no
error. The record shows that the district court made
an individualized sentencing assessment without
improperly considering factors from Gersky’s codefendants’ sentencing determinations. The district
court did note that it had, in response to Gersky’s
request in his sentencing memorandum, attempted to
ascertain the facts relevant to sentencing in the coconspirator cases, as well as other cases involving
similar facts. However, the district court repeatedly
and unequivocally stated that although defense
counsel had spent a great deal of effort comparing
Gersky’s case to others, it would assess Gersky
individually:
I’m considering [the other cases]. I’ve got
to do an individual sentence. . . . I’ve got
[the other cases], I’ve reviewed them. . . .
But every one of those cases, when you
dig into [it], . . . you just can’t say, well,
they were all charged with the same
crime. Some of them -- and they just had
different features and different concerns
of the judges. I’ve got to deal with the
ones in front of me . . . . In the end, I am
going to sentence Mr. Gersky on Mr.
Gersky’s conduct, not on what I can
dimly perceive from other judges . . . .
Every one of these seven defendants I
am sentencing presents with their own
unique set of facts. And no two are alike.

15a
And I’m trying to drill down on each one
of them, treat them individually, focus
on them individually, and not burden
them on the conduct of others . . . . So I’m
trying to judge them on their own
conduct and on my own assessment of
their future dangerousness. . . . I don’t
want to think that I’m simply -- I’m
going to put this on a chart and I’m going
[to] sentence because some other judge
or judges . . . on facts I don’t know,
rendered a sentence that somehow []
locks me in. It does not do that.
J.A. 152-55. Nor does the record otherwise show that
the district court improperly arrived at its sentence
by considering information not disclosed to Gersky.
As such, we find no error on this issue.
D.
Finally, Gersky argues that his sentence is
inconsistent with those of his co-conspirators, in
violation of 18 U.S.C. § 3553(a)(6). However, Gersky’s
argument on this point is not tied to his allegations of
Fifth Amendment or due process violations—the
constitutional grounds by which he claims to avoid his
appellate waiver. Accordingly, Gersky’s inconsistent
sentencing arguments are waived.
AFFIRMED IN PART AND DISMISSED IN PART

16a
[ENTERED: June 1, 2020]
FILED: June 1, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4702
(2:15-cr-00799-RMG-7)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JAMES T. GERSKY, a/k/a Hesh
Defendant - Appellant
JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed in part.
The appeal is dismissed in part.
This judgment shall take effect upon issuance
of this court's mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

17a
[ENTERED: September 21, 2018]
UNITED STATES DISTRICT COURT
District of South Carolina
UNITED STATES OF AMERICA
vs.
JAMES GERSKY
JUDGMENT IN A CRIMINAL CASE
Case Number: 2:15-CR-00799-RMG (7)
USM Number: 21379-040
CHRISTOPHER ADAMS, Retained
CHRISTOPHER GEEL, Retained
Defendant’s Attorneys
THE DEFENDANT
J Pleaded guilty to count(s) 2,3 on October 25,
2017.
F Pleaded nolo contendere to count(s)
which was accepted by the court.
F Was found guilty on count(s)
of not guilty.

after a plea

The defendant is adjudicated guilty of these offenses:
Title &
Section
18 USC 2251(a),
18 USC 2251(e)

Nature of
Offense Count
Offense
Ended
Please see 2nd 4/23/15
2
superseding
indictment

18a
18 USC 2252(a)(2), Please see 2nd
18 USC 2252(b)(1) superseding
indictment

4/23/15

3

The defendant is sentenced as provided in
pages 2 through 6 of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
F The defendant has been found not guilty on
count(s)
.
J Count(s) 1,4 F is J are dismissed on the motion
of the United States.
F Forfeiture provision is hereby dismissed on
motion of the United States Attorney.
It is ordered that the defendant must notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully
paid. If ordered to pay restitution, the defendant
must notify the court and United States attorney of
any material changes in economic circumstances.
August 29, 2018
Date of Imposition of Judgment
/s/
Signature of Judge
RICHARD M. GERGEL,
U.S. DISTRICT JUDGE
Name and Title of Judge
9/20/18
Date

19a
IMPRISONMENT
The defendant is hereby committed to the
custody of the Federal Bureau of Prisons to be
imprisoned for a total term of THREE HUNDRED
SIXTY (360) months; said term consist of 360
months as to Count Two and 240 months as to Count
Three, to run concurrently. The defendant shall pay
the mandatory $200.00 special assessment fee and
restitution in the amount of $108,715.00 both due
beginning immediately.
J The court makes the following recommendations
to the Bureau of Prisons:
The defendant be
designated to FCI, Butner. The defendant shall
participate in the Sex Offender Treatment Program
while incarcerated.
J The defendant is remanded to the custody of the
United States Marshal.
FThe defendant shall surrender to the United
States Marshal for this district:
F at

Fa.m.

F p.m. on:

F as notified by the United States Marshal.
F The defendant shall surrender for service of
sentence at the institution designated by the Bureau
of Prisons:
F before 2 p.m. on
F as notified by the United States Marshal.
F as notified by the Probation Office.

.

20a
RETURN
I have executed this Judgment as follows:

Defendant delivered on
to
at
, with a certified copy of this
judgment.
UNITED STATES MARSHAL
By:
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of LIFE, as
to each of Counts Two and Three, to run
concurrently. While on supervised release, the
defendant shall comply with the mandatory and
standard conditions of supervision outlined in 18
U.S.C. § 3583(d). The defendant shall also comply
with the following special conditions for the reasons
set forth in the presentence report which has
previously been adopted by the Court as the findings
of facts for the purposes of sentencing: 1. The
defendant shall participate in a program of mental
health counseling and/or treatment as deemed
necessary by the U.S. Probation Officer, until
such time as the defendant’s release from the
program is approved by the U.S. Probation Officer.
2. The defendant shall participate in a the
Computer/Internet Monitoring Program and abide
by the rules of that program as approved by the U.S.
Probation Officer. 3. The defendant shall participate

21a
in a sex offender treatment program, approved by
the U.S. Probation Office, which may include
physiological and psychological testing. 4. The
defendant shall contribute to the costs of any
treatment, drug testing and /or location monitoring
not to exceed an amount determined by the court
approved U.S. Probation Office’s Sliding Scale for
Services, and shall cooperate in securing any
applicable third-party payment, such as insurance or
Medicaid. 5. The defendant shall not possess,
procure, purchase or otherwise obtained access to
any form of computer network, bulletin board,
Internet, or exchange format involving computers
unless specifically approved by the United States
Probation Office. 6. The defendant shall have nor
unsupervised contact with children under the age of
18, without the approval and consent of the United
States Probation Officer. 7. The defendant shall
comply with the sex offender registration laws in
accordance with the Sex Offender Registration and
Notification Act (SORNA), including any applicable
state laws. 8. The defendant shall not possess any
audio or visual depictions containing sexually
explicit conduct as defined in 18 U.S.C. § 2256(2)(A).
9. The defendant shall not frequent adult book
stores, sex shops, topless bars or locations that act as
a sexual stimulus. 10. The defendant shall submit to
random polygraphs of treatment purposes, as well as
compliance to the standard conditions of supervision,
to be conducted by any person deemed appropriate
by the United States Probation Officer as a
treatment tool to be used in conjunction with the sex
offender treatment program with the following
limitations: (A) Answers to questions asked during a
polygraph test cannot be used against the defendant

22a
in any criminal proceedings other than an action to
extend, modify, or revoke supervised release. (B)
information obtained during polygraph testings
cannot be made public or released to state or any
other prosecuting authorities; and (C) Information
obtained during polygraph testing cannot be used in
a civil commitment proceeding under state or federal
law. The defendant shall make co-payments up to
the total costs of the polygraph. These payments
shall be made in addition to co-payments made for
sex offender treatment and shall be based on the
sliding scale. 11. The defendant shall pay any
remaining restitution in the amount of no less than
$500.00 per month, beginning within 60 days of
release. The payments shall be made payable to
“Clerk, U.S. District Court” and mailed to P.O. Box
835, Charleston, SC 29402. Interest on any
restitution ordered as to this defendant is waived.
Payments shall be adjusted accordingly, based upon
the defendant’s ability to pay as determined by the
Court.

MANDATORY CONDITIONS
1. You must not commit another federal, state or
local crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
F The above drug testing condition is
suspended, based on the court’s determination

23a
that you pose a low risk of future substance
abuse. (check if applicable)
4. J You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)
5. J You must cooperate in the collection of DNA
as directed by the probation officer. (check if
applicable)
6. J You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. §20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
the location where you reside, work, are a
student, or were convicted of a qualifying
offense. (check if applicable)
7. F You must participate in an approved program
of domestic violence. (check if applicable)
You must comply with the standard conditions that
have been adopted by this court as well as any other
conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of
supervision. These conditions are imposed because
they establish the basic expectations for your
behavior while on supervision and identify the
minimum tools needed by probation officers to keep
informed, report to the court about, and bring about
improvements in your conduct and condition.

24a
1.

You must report to the probation office in the
federal judicial district where you are
authorized to reside within 72 hours of your
release from imprisonment, unless the
probation officer instructs you to report to a
different probation office or within a different
time frame.

2.

After initially reporting to the probation office,
you will receive instructions from the court or
the probation officer about how and when you
must report to the probation officer, and you
must report to the probation officer as
instructed.

3.

You must not knowingly leave the federal
judicial district where you are authorized to
reside without first getting permission from
the court or the probation officer.

4.

You must answer truthfully the questions
asked by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where
you live or anything about your living
arrangements (such as the people you live
with), you must notify the probation officer at
least 10 days before the change. If notifying
the probation officer in advance is not possible
due to unanticipated circumstances, you must
notify the probation officer within 72 hours of
becoming aware of a change or expected
change.

6.

You must allow the probation officer to visit
you at any time at your home or elsewhere,

25a
and you must permit the probation officer to
take any items prohibited by the conditions of
your supervision that he or she observes in
plain view.
7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless
the probation excuses you from doing so. If
you do not have full-time employment you
must try to find full-time employment, unless
the probation officer excuses you from doing
so. If you plan to change where you work or
anything about your work (such as your
position or job responsibilities), you must
notify the probation officer at least 10 days
before the change. If notifying the probation
officer at least 10 days in advance is not
possible due to unanticipated circumstances,
you must notify the probation officer within 72
hours of becoming aware of a change or
expected change.

8.

You must not communicate or interact with
someone you know is engaged in criminal
activity. If you know someone has been
convicted of a felony, you must not knowingly
communicate or interact with that person
without first getting the permission of the
probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

10.

You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was

26a
designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).
11.

You must not act or make any agreement with
a law enforcement agency to act as a
confidential human source or informant
without first getting the permission of the
court.

12.

If the probation officer determines that you
pose a risk to another person (including an
organization), the probation officer may
require you to notify the person about the risk
and you must comply with that instruction.
The probation officer may contact the person
and confirm that you have notified the person
about the risk.

13.

You must follow the instructions of the
probation officer related to the conditions of
supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided
me with a written copy of this judgment containing
these conditions. For further information regarding
these conditions, see Overview of Probation and
Supervised Release Conditions, available at
www.uscourts.gov.
Defendant’s Signature
Date _________________

27a
CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary
penalties under the schedule of payments on Sheet
6.
Assessment

JVTA
Fine Restitution
Assessment*

TOTALS $200.00

$

$108,715.00

F The determination of restitution is deferred until
An Amended Judgment in a Criminal
Case (AO245C) will be entered after such
determination.
J The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee
shall
receive
an
approximately
proportioned payment, unless specified otherwise
in the priority order or percentage payment
column ·below. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of
Payee

Total
Loss*

Restitution Priority or
Ordered
Percentage

Minor G.H. $98,715.00

$98,715.00

1

Minor E.C. $10,000.00

$10,000.00

1

TOTALS

$108,715.00 $108,715.00

28a
F Restitution amount ordered pursuant to plea
agreement $
F The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of judgment,
pursuant to 18 U.S.C. §3612(f). All of the
payment options on Sheet 5 may be subject to
penalties for delinquency and default, pursuant
to 18 U.S.C. §3612(g).
J The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
J The interest requirement is waived for the F fine
J restitution.
F The interest requirement for the
F restitution is modified as follows:

F

fine

*Justice for Victims of Trafficking Act of 2015, Pub.
L. No. 114-22.
**Findings for the total amount of losses are
required under Chapters 109A, 110, 110A, and 113A
of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A J Lump sum payment of $200.00 special
assessment fee and restitution in the amount

29a
of $108,715.00, both due immediately, balance
due
F not later than

, or

J in accordance F C, J D, F E, or F F
below; or
B F Payment to begin immediately (may be
combined with F C, F D, or F F below); or
C F Payment in equal ______ (weekly, monthly,
quarterly) installments of $
over a period of _____ (e.g., months or years),
to commence
(e.g., 30 or 60 days) after
the date of this judgment; or
D J Payment in equal monthly installments of no
less than $500.00 to commence 60 days after
release from imprisonment to a term of
supervision; or
E F Payment during the term of supervised
release will commence within (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay at
that time; or
F F Special instructions regarding the payment of
criminal monetary penalties:
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal

30a
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
J Joint and Several
Defendant James Gerskey and Co-Defendants
Brandon D. Gressette, 2:15-00799-RMG-1,
Michael P. Augustin, 2:15-00799-RMG-2, Dejan
Becovic, 2:15-00799-RMG-3, Jonathan A. Cripe,
2:15-00799-RMG-4, Sean Ellis, 2:15-00799-RMG5, Steven M. Fox, 2:15-00799-RMG,-6. Total
Joint and Several Amount: $108,715.00.
F The defendant
prosecution.

shall

pay

the

cost

of

F The defendant shall pay the following court
cost(s):
F The defendant shall forfeit the defendant's
interest in the following property to the United
States:
As directed in the Preliminary Order of Forfeiture,
filed
and the said order is incorporated
herein as part of this judgment.
Payments shall be applied in the following order:
(1)
assessment,
(2)
restitution
principal,
(3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) penalties,
and (8) costs, including cost of prosecution and court
costs.

31a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
UNITED STATES OF AMERICA :
:
vs.
:
:
JAMES T. GERSKY
:

2:15 - CR - 799

Sentencing in the above-captioned matter held
on Wednesday, August 29, 2018, commencing at 1:17
p.m., before the Hon. Richard M. Gergel, in the United
States Courthouse, Courtroom V, 81 Meeting St.,
Charleston, South Carolina, 29401.
APPEARANCES:
DEAN SECOR, ESQ., Office of the U.S.
Attorney, 151 Meeting St., Charleston, SC,
appeared for the Government.
AUSTIN BERRY, ESQ. and LAUREN E.
BRITSCH, ESQ., Office of the U.S. Attorney,
1400 New York Ave. NW, Washington, D.C.,
appeared for the Government.
CHRISTOPHER W. ADAMS, ESQUIRE, 102
Broad St., Charleston, SC, appeared for
defendant.
REPORTED BY
DEBRA L. POTOCKI, RMR, RDR, CRR
Official Court Reporter for the U.S. District Court
P.O. Box 835
Charleston, SC 29402

32a
MR. SECOR: Your Honor, the next case
is United States of America versus James T. Gersky,
Criminal No. 2:15-CR-799. Mr. Gersky is appearing
before you represented by Mr. Christopher Adams.
We are here today for purposes of sentencing.
Your Honor, if the Court pleases, I’ll point out
a few housekeeping matters -THE COURT: Please.
MR. SECOR: -- at the outset. Your
Honor, first of all, as the Court’s aware, earlier this
morning during the sentencing of a co-defendant,
Brandon Gressette, the Government did a slide show
presentation. We have a printout of the slide show
presentation as well as a printout of the victim impact
statement from which the very first victim on the
slide show read from during that verbal oral
presentation. We would ask that that be made part of
the record as the Government’s Exhibit 1.
THE COURT: That is admitted as
Government Exhibit 1.
MR. SECOR: And we would ask that it
be sealed, given the sensitivity.
THE COURT: Motion to seal is granted.
MR. SECOR: And related to those two
previous defendants that were sentenced this
morning, Mr. Gressette and Mr. Ellis, we would ask if
we may attach the same written statement of that
victim for those two previously admitted exhibits as
well.
THE COURT: All right.

33a
MR. SECOR: I know those are two
different defendants, but just a housekeeping, I
wanted to make sure each case is consistent -THE COURT: Yes.
MR. SECOR: -- for the record.
seal.

THE COURT: That is admitted under
MR. SECOR: Thank you, Your Honor.

The next housekeeping matter will be on the
issue of forfeiture. The Government would move to
dismiss its allegations in the indictment concerning a
money judgment as well as any real property.
However, the Government would move that the
defendant be ordered to forfeit his computer
equipment that was used in the commission of this
crime. If -- and I’ll add as we did in the other case -- if
something that is a computer device or item is able to
be cleaned and sanitized effectively, we’ll hand that
back to the defendant. But if an item can not be
cleaned and sanitized, or if it’s encrypted, we would
ask that we not hand that back to the defendant.
THE COURT: Mr. Adams, do you have
any objection to that?
MR. ADAMS: I don’t, Your Honor.
THE COURT: That motion is granted.
MR. SECOR: Then finally, Your Honor,
there’s the issue of restitution. There is no restitution
request concerning what is known as global victims.
There is a restitution request concerning the

34a
Sekretchat victims, and
agreement on that matter.

I

believe

there’s

an

THE COURT: What is that?
MR. SECOR: I believe the defendant has
agreed to the amounts that were entered into the
record for the two previous defendants this morning
as to the Sekretchat victims.
correct, sir?

THE COURT: Mr. Adams, is that

MR. ADAMS: It is, Judge, with one
comment. And I got this -- I didn’t see the $90,000
letter until this morning; I missed that yesterday in
the e-mail. That one has -- the victim in that has fetal
alcohol syndrome, and had -- so had a pre-existing
condition. I’ve not dealt with a federal restitution
issue with a pre-existing condition. I don’t want to
miss something. If that is something that should be
parsed out, I think we should parse it out. If that’s
something that you take -THE COURT: You take your victim like
you find them.
MR. ADAMS: I’m not a torts guy.
now.

THE COURT: You’re in my wheelhouse

MR. ADAMS: So if it’s appropriate to be
on the hook for 108 jointly and severally, we will be.
If it’s appropriate to divvy that up, then I would
request it.

35a
THE COURT: I reviewed it, and it looks
like to me reasonably related. This is your time to
contest it. If you want to contest it, fine, I’ll address
it, but I need to make a restitution determination.
MR. ADAMS: We don’t have a objection
to joint and several liability for the 108, we said we
would agree in the plea agreement to anything
reasonable. If you believe that’s reasonable -THE COURT: I have. I reviewed it and I
think it’s reasonable.
MR. ADAMS: We’re fine with that.
Thank you.
THE COURT: Very good. Okay. Has the
Government gone through all its preliminary
matters?
MR. SECOR: Yes, Your Honor, thank
you for indulging us.
THE COURT: Okay. Now, Mr. Adams,
let me get you back on your feet again.
MR. ADAMS: Yes, sir.
THE COURT: Don’t want to get you too
comfortable here today. You’re always happy when
you’re talking anyway, so I’m not going to disturb you.
Mr. Adams is one of my favorites; what can I say.
MR. ADAMS: You bring that point up all
the time, and I -right?

THE COURT: You’re looking to win one,

36a
MR.

ADAMS:

When

I’m

silently

listening.
THE COURT: You’re waiting for the
piano to fall next.
Mr. Adams, you want to confirm you’ve had a
chance to review the presentence report?
MR. ADAMS: Yes, sir.
THE COURT: And you’ve had a chance
to speak with Mr. Gersky concerning that report?
MR. ADAMS: Yes, sir.
THE COURT: Very good. Miss Ravenel,
could we swear Mr. Gersky.
(Defendant was duly sworn.)
THE COURT: Mr. Gersky, I want to
confirm you’ve had a chance to review presentence
report.
THE DEFENDANT: I did, Your Honor.
THE COURT: And you’ve had a chance
to consult with Mr. Adams concerning that report?
THE DEFENDANT: I have.
THE COURT: Mr. Adams, are there
objections to the presentence report?
MR. ADAMS: Judge, we had three
objections, and really, I guess, I’m happy to waive the
first and second one.

37a
THE COURT: Wait, let’s just -- let’s
specify for the record.
MR. ADAMS: We had objection number one
was on page two of our letter to Miss Frye, and we
objected to the attempt to entice travel enhancement.
THE COURT:
objection, so to say?

The

2G2.2(b)(3)(E)

MR. ADAMS: Yes, sir.
THE COURT: Paragraph 100.
that.

MR. ADAMS: Yes, sir. And we withdraw
THE COURT: Okay. Very good.

MR. ADAMS: Objection number two was
a grouping objection related to 3D1.2, and we
withdraw that.
THE COURT: Hold it just a second.
That’s paragraphs 108 and 109 and 110, is that
correct?
MR. ADAMS: Yes, and 111.
THE COURT: And 111, and that’s the
grouping and you withdraw that.
MR. ADAMS: Yes, sir. The one -- and I
don’t -- we’re not requesting to make additional
argument on it -- we would like a ruling on objection
number three on the double counting objection.
THE COURT: Yes.

38a
MR. ADAMS: On paragraphs 101, 103,
110 and 112. And honestly, Judge, just so that we
have a ruling.
THE COURT: Don’t apologize for
representing your client, I have no objection to that.
The issue of this double counting, particularly
in the child pornography area, has been a source of
some discussion. The case precedent is well settled
that conduct can overlap and still be applied under
the Sentencing Guidelines. And that’s certainly the
case here.
In each of these previous sentences, and I
expect here, I will be varying. And one of my
considerations, frankly, is that a lot of these
enhancements are very -- I believe are appropriate
and -- but sometimes when you compile so many of
them, they produce a result that perhaps is not
reasonable. And that’s where 18 United States Code
3553(a) is helpful, because it allows me to plow all
these other factors to reach a sentence which is
sufficient and not greater than necessary.
So I overrule your objection as to those, but I
will consider those when determining a variance in
this case.
MR. ADAMS: Thank you. Judge, we had
a fourth objection to Miss Frye, and it was basically
attacking the guidelines structure and for child
pornography cases as a whole. And we withdraw that
at this time, and will deal with that as a variance
argument under 3553(a).

39a
THE COURT: I think you know that
those are arguments worth making on a variance
argument. So that objection is withdrawn. Correct?
MR. ADAMS: Yes, sir.
objections?

THE

COURT:

Okay.

Any

other

MR. ADAMS: No, sir.
THE COURT: Okay. In light of the
Court’s ruling and withdrawal of the other objections,
in the absence of any other objections to the
presentence report, the Court accepts and adopts the
findings of the presentence report, and adopts it for
purposes of sentencing -- for findings of fact for
purposes of sentencing.
The total offense level is 43, the criminal
history category is one. The guideline range is 600
months. Supervised release count two, five years to
life; count three, five years to life. Restitution,
$108,715 joint and several to all other defendants in
2:15-799. Special assessment $200.
Mr. Adams, I’ll be glad to hear from you
concerning sentencing.
MR. ADAMS: Thank you, Your Honor. I
think we will be briefer than this morning. I have
three large -- should Mr. Gersky remain standing or
seated?
THE COURT: He can sit unless he’s
speaking. When he’s speaking, he should stand, but
otherwise he’s fine.

40a
MR. ADAMS: Judge, we submitted a
number of letters as an exhibit to the sentencing
memorandum; I know that you’ve read all of them.
THE COURT: I have.
MR. ADAMS: Mr. Gersky’s family is
here sitting with Mr. Geel on the second row, his
mom, his father and his grandfather. If the Court -They all submitted letters. If the Court has any
questions at all about Mr. Gersky, they’re available,
but I told them -THE COURT: I don’t need to speak to
them. I have read their letters.
MR. ADAMS: Judge, before I make my
three arguments, I wanted to introduce his high
school and college records.
THE COURT: That would be fine.
MR. ADAMS: So Mr. Gersky grew up in
Michigan. He struggled in school, although
intellectually he was very capable, and he had some
hardships early on. His family believes that he has
suffered from some depression and from ADD, and
that would be consistent with his performance in high
school. He just -- basically he was a young man who
was plenty smart, who really just didn’t take flight
when you would have expected him to. And his dad’s
a hard-working guy, they were living in a tougher
neighborhood when he was growing up. Later, they
moved to a place with a better ranked school district
and he was doing a little bit better, but he wasn’t
really excelling then.

41a
He knocked around. James knocked around a
little bit. He went to New York, he worked, he got into
a couple of community colleges and then withdrew.
THE COURT: I read all this in your -MR. ADAMS: And then he got back and
he moved to western Michigan and he was doing
great. He was enrolled in a nursing program, he was
a three four student in junior college. He’s in his
thirties. He had a girlfriend who they had a good
relationship. And yet, when she would go to bed, he
got involved with this chatroom that leads us here.
And the family, all the family, not just the ones
represented here, but his Uncle John, who worked
with the FBI task force as a local law enforcement
officer, and others all talk about what great kid he
was, and they were all so happy that he had gotten it
together and had this promising great future. And
then this happened, and he got caught for this and
arrested for this and is before the Court today.
Our three -- obviously we made a lot of
arguments in our sentencing memorandum, but our
three big points that I’d like to focus our time together
on is his lack of criminal history points. He has a zero.
He did have some arrests early on for minor in
possession of alcohol and things like that.
THE COURT: Seemed irrelevant to this.
MR. ADAMS: That are largely
irrelevant. And a zero criminal history. He’s 35 years
old and zero criminal history points, and yet is here
for very very very serious offense.

42a
THE COURT: Very classic, as you know,
Mr. Adams, in these child pornography cases.
MR. ADAMS: It is. And heartbreaking.
THE COURT: I can’t remember very
frequently I’ve had anyone with any significant
history.
MR. ADAMS: But we certainly think
that that is -THE COURT: It’s a factor.
MR. ADAMS: -- that’s important. Judge,
I’ll also say when he was pled, and we were the last
ones to plea, and we had a lawyer from Michigan in
the case, a great lawyer, and then I -- he had a busy
trial schedule, and I had not much going on, and so I
took over primary responsibility.
THE COURT: When you
running back to Puerto Rico at the time.

weren’t

MR. ADAMS: I think that was when you
were speaking with the judge from Nashville. About
that time.
THE COURT: Yes.
MR. ADAMS: And so I took over primary
responsibility, and we entered a plea, really about two
weeks after that. And honestly, the lawyers were
probably responsible for us not coming in second, as
opposed to last.
THE COURT: I don’t hold that in any
way against Mr. Gersky.

43a
MR. ADAMS: Good. Thank you.
What I’ll say, and I think that makes his
parents feel better, because they were wondering -THE COURT: What took you so long.
MR. ADAMS: That’s right. But I’ll say,
Judge, that when he came in and we entered the plea,
we have cooperation language in the plea, even
though we were -- everybody else had pled out.
Because we wanted to do everything we could do to
put ourselves in the best possible position.
THE COURT: I think actually all the
defendants were kind of in the duck soup, because
other people had pled earlier, the Government had
the road map, they had the computer track, they
didn’t need anybody.
MR. ADAMS: No, they didn’t for this
case. We were hoping he might have some glimmer of
piece of some puzzle that might help somewhere else,
but he didn’t. He did unencrypt his devices for them,
he answered every question they had for him, he
answered. In fact, we followed up with one password
was wrong and he had about nine passwords that he
had remembered, and one was wrong, we followed up
and got the right one to them. You know, I’ve been
hoping that I’d get a phone call saying, hey, turns out
you’re getting that 5K. That just didn’t materialize.
But he did everything, and he’s been available
since that time. They’ve had no follow-up questions.
But he’s been available 24/7 since we pled last
October, to answer anything.

44a
Part of the dilemma -- and this isn’t a knock on
the Government -- is he wasn’t involved in the
chatrooms in the other versions of these
investigations, he wasn’t in with some of this other
stuff. He hadn’t been in as long as the other guys.
When he was in, he was very engaged in it.
THE COURT: No question.
MR. ADAMS: But he had not been in, in
the years preceding it. And after his -- after this was
shut down, he wasn’t involved in any more stuff. So
he had limited ability to help himself.
THE COURT: Also, because he wasn’t in
the criminal life, he didn’t have other crimes he could
report or associates he could cooperate against.
MR. ADAMS: Yes, sir. We would have
loved to. We would have absolutely loved to. And we
just didn’t have that.
But I do think it’s fair to consider how that
factors in for somebody who made an earnest effort to
provide everything that he did have, and even if it
doesn’t add up to more.
And in the Government’s Power Point this
morning they used our request for a low end of the
statutory range.
THE COURT: It had no impact. Don’t
waste your time. That part, you know, beating up the
lawyers for arguing for their clients doesn’t have any
effect on me.
MR. ADAMS: I will say, Judge, they
gave -- and they have the specialized knowledge out

45a
of the unit at the Department of Justice -- they gave a
run down in their sentencing memorandum of people
who had been sentenced around the country, and they
called certain sentences by Judge Ellis, who -- I didn’t
know Judge Ellis until two weeks ago, and apparently
he’s a legendary figure -- they called his sentences an
outlier, because a lot of them were in the teens and
the twenties. He had a guy who got two and a half
years on this charge. Obviously the Government did
away with the minimum mandatory for that person,
tells me -THE COURT: He was a cooperator.
MR. ADAMS: -- he must have been an
effective cooperator. But a number of his people got in
the lower range of the statutory scheme.
THE COURT: They were the 17-and-ahalf to 21-year range.
MR. ADAMS: Yes, sir. And I don’t think
you can call those outliers, because those were a third
of the sentences reported.
THE COURT: I’m considering them all.
I’ve got to do an individual sentence.
MR. ADAMS: Yes, sir.
THE COURT: And I can’t get inside of
Judge Ellis’ head or Judge Sandlin’s head or any of
those. I certainly have gone to ECF and looked where
I can determine somebody was a cooperator and so
forth. And some of those, they seemed to be, you know,
focusing on the issue of dangerousness. That is a big
factor for me.

46a
MR. ADAMS: Yes, sir.
THE COURT: I start with the
guidelines; I think they’re too high here. So I then am
trying to sort out what we do on almost every other
case, which is trying to impose a sentence which
meets the 3553(a) standards, and that’s what I’m
trying to do here.
And a big factor is my assessment of future
dangerousness. And you’ve been sitting here today, I
noticed you heard me, what I said about -MR. ADAMS: I did hear that. Let me
finish up this point, and then I’ll address future
dangerousness, try to, head on.
Comparing as closely as we can apples to
apples, and this is a point that Mr. McCann raised,
but the person who founded Sekretchat, who was the
ringleader who controlled -THE COURT: Look, I know about Mr.
Soto, I’ve read -- actually got Judge Sandlin to send
me the plea colloquy and the sentencing transcript,
both of which were sealed. I’ve got them, I’ve reviewed
them. I’m trying to treat everybody out of the same
spoon. But every one of those cases, when you dig into,
Mr. Adams, you just can’t say, well, they were all
charged with the same crime. Some of them -- and
they just had different features and different concerns
of the judges. I’ve got to deal with the ones in front of
me, and I doubt you want to cite the two cases I’ve
already sentenced. Okay?
MR. ADAMS: Well, I will -- I think we
could distinguish those.

47a
THE COURT: You can; you might well
want to. In the end, I am going to sentence Mr. Gersky
on Mr. Gersky’s conduct, not on what I can dimly
perceive from other judges, or from which -- these
other two I’ve already sentenced. They did their thing,
I focused on them, and I’m going to focus on Mr.
Gersky. I’m trying to use the 3553(a) factors. Every
one of these seven defendants I am sentencing
presents with their own unique set of facts. And no
two are alike. And I’m trying to drill down on each one
of them, treat them individually, focus on them
individually, and not burden them on the conduct of
others, to the extent it’s outside the conspiracy, et
cetera. So I’m trying to judge them on their own
conduct and on my own assessment of their future
dangerousness.
MR. ADAMS: Judge, I hear you loud and
clear. If you’ll indulge me for another sentence and a
half, because I do think it speaks to the unwarranted
disparity.
Mr. Soto was a ringleader in this conduct. And
then there’s a gentleman from South Africa who got
ten years, who was part of this same scheme.
THE COURT: Right, and he’s sentenced
under South African law. And there’s an arrest
warrant trying to extradite him. So again -MR. ADAMS: I’m done.
THE COURT: In a perfect world, I would
have had them all and I would have -- and I could
make individual assessments. I certainly will
consider every one of these, and I notice that was a
good part of your brief, I read them, I went -- it caused

48a
me to go back inasmuch as I could to reach out to
other judges to try to get this information. And I’ve
done my best to get it. But in the end, Mr. Gersky is
going to stand on his own two feet, and he’s not going
to be -- you know, and there’s specific parts, I’m going
to be candid with you, specific parts of his conduct on
these websites, and statements he made that are of
great concern to me, particularly about having sex
with underage girls.
MR. ADAMS: Yes, sir, I’ll deal with that.
THE COURT: And I’m going to focus on
that. That, to me, is the important part. And his
comments are different -- behaviors are different from
others, and I’m not going to burden, assume because
he did this, he raped a 14 year old, as Gressette, I’m
not assuming that. I’m just saying, everyone has to -so I fully -- and I’ve been a little bit cutting you off a
little only because I’ve read your brief, I know where
you’re going on all this. I drilled down to look at it, but
I don’t want to think that I’m simply -- I’m going to
put this on a chart and I’m going sentence because
some other judge or judges or factors I don’t know, on
facts I don’t know, rendered a sentence that somehow
that locks me in. It does not do that.
MR. ADAMS: Of course it doesn’t lock
you in. I’ll move on to the next point.
THE COURT: Okay.
MR. ADAMS: Judge, there was no
assertion in the PSR that he had sex with underage
kids. He was way too busy in the chatroom, no doubt
about that, he made a bunch of inappropriate
comments in there. He did not have sex with

49a
underage children. He bantered that he did, with
these other people. That language was not included,
and that assertion was not included in the PSR. The
time to object to the PSR came and went. And as noted
in Miss Frye’s follow up to our objections, said the
Government has submitted no objections to the
presentence report.
So they did not -THE COURT: Mr. Adams, I respectfully
disagree with you. I read those references in the
sentencing memorandum and in the logs. I requested
the logs, because I had to make a sentencing decision.
And it certainly -- I had the probation officer gather
me the logs for those, because I wanted -- you know,
the question came up earlier today about context. And
I wanted to make sure this wasn’t a punch line in a
joke, it wasn’t -- I tried to give the defendant the
benefit of the doubt. And I have pulled the logs on
each of those comments to see the context of them.
And I’m glad to address that your client frankly, you
know, he’s his own choice whether he wishes to speak,
but having you tell me he didn’t have sex, is
inconsistent with his own contemporaneous
statements that he did, and he described how he
manipulated so he wouldn’t get caught.
Now, that is of concern to me. And I’m trying to
get you focused on the areas which are of concern,
because they need to be addressed.
MR. ADAMS: Judge, I’m trying to
address that. This was raised in the Government’s -this assertion was raised in the Government’s
sentencing memorandum filed on the 20th of August.
The Government did not call me since the plea last

50a
October and say, hey, we have concerns that he was
with underage girls, we want to interview him. We
would have been bound by our plea agreement to
answer all their questions honestly, and to do
whatever follow up they might request. They didn’t
ask for that. Our answer would have been no, we
made a bunch of raunchy, terrible, inappropriate and
indefensible statements to the Sekretchat group, but
those aren’t true. And that’s what we would have told
them.
THE COURT: You’re now able to do
that. This is why we’re having the hearing.
MR. ADAMS: That’s our position.
THE COURT: Okay. Well, that’s good,
but there are quotes, I mean the transcript -- I’ve got
to make a sentencing decision on all the relevant
evidence that’s before me. And I have attempted to
drill down and figure this out, giving you every chance
to respond to it. And you’re fully aware of these
concerns, you’re prepared to answer that they’re not
true. I would prefer to hear it from your client and not
you. But in any regard, I’ve got to make a
determination because it is important -MR. ADAMS: Yes, sir.
THE COURT: -- in my determination
about future dangerousness. And all I can say to you
is, is that he, on multiple occasions, explicitly
described having sexual relations with underage
girls.
MR. ADAMS: He said that. And my --

51a
THE COURT: And how he did it, the
methods he used, the techniques he used to
accomplish that.
MR. ADAMS: So, Judge, since the plea
was entered October 25th of last year, they have had
all his electronic devices, they’re all unencrypted. And
I haven’t received anything from them that they have
found some out-of-Sekretchat texts about meeting up
with some ten year old at Dairy Queen. Nothing.
evidence.

THE COURT: They don’t have that

MR. ADAMS: They don’t have that
evidence because that evidence doesn’t exist.
THE
explanation of it.

COURT:

Well,

that’s

one

A number of these defendants went in and
deleted items from their computers, it shows deleted.
I think this defendant may be among them.
And so it’s all, you know, all this is a totality of
the evidence.
You had copies of these logs, did you not?
MR. ADAMS: I did.
THE COURT: Okay. I mean -MR. ADAMS: And there’s been no follow
up to identify anybody. And it just is beyond -THE COURT: But that goes to the
weight that should be given to these statements, and
you get to argue that.

52a
MR. ADAMS: I’m trying to.
THE COURT: Well -MR. ADAMS: Judge, I just don’t think
that’s credible.
THE COURT: But you’re starting off,
Mr. Adams, by saying somehow I can’t consider it. No,
I’m going to consider it. And you’re getting every
ability here today to answer it. These are the
statements of your client in the course of his criminal
conspiracy and conduct. It’s probative. I’m going to
consider it. And what I want you to afford your client
the opportunity is to address that.
MR. ADAMS: Thank you. Judge, we
address it by saying we deny it. If there are any
underage girls that the Government, in the past year,
has been able to track down, we’ll deal with that.
There are none. We don’t expect there to be any.
These were comments that were wrong and
inappropriate, but he was not out there having sex
with the 14 year olds. He was in the chatroom telling
these other guys he had.
THE COURT: Okay. I hear you.
MR. ADAMS: And I would like to lastly
address future danger. And then I believe Mr. Gersky
would like to address the Court.
Judge, I heard you with great interest on the
last sentencing, and express your concerns about the
study and about future dangerousness and how the
studies are across the board. Mr. Gersky is 35 years
old, as he’s in front of you today, and he has

53a
somewhere in excess of 15 years that he will be
sentenced to today.
already?

THE COURT: You know the sentence
MR. ADAMS: No, sir, I do not.

THE COURT: I was wondering, I was
going to look around.
MR. ADAMS: It will be in excess of 15
years. If there is a way that that’s wrong, I would love
to be wrong on that.
Obviously he’s going to be in prison a long time.
And once he gets out, he’s not going to be out without
supervision.
THE COURT: He’s going to have
lifetime supervision.
MR. ADAMS: He’s going to have lifetime
supervision, he’s going to have lifetime registry, he’s
going to have the proverbial Scarlet letter that he’s
earned. That he’s earned. And if Probation wants to
have him do treatment, he’s going to have to do that,
and will do that with a great attitude.
So the question then is how long is the
appropriate length of time in the BOP. I would
suggest in the -- looking at all the factors, that
somewhere closer to Mr. Soto, without -- you know
more about him than I do, because it was sealed. But
somewhere in that neighborhood for this gentleman
is more appropriate than some of the other sentences
this morning.

54a
THE COURT: I will tell you that a
critical question is, is he in the category of a likely
actor, or is he in a category of a looker. Okay? I mean,
that is an important feature. And my determination
of that is going to turn on your client’s response. With
all due respect to you, Mr. Adams, this is your client
that made the statements, he needs to address them.
MR. ADAMS: Yes, sir.
THE COURT: And the Government’s
response, and then me weighing all the evidence on
argument. So I have to say which of those pots he falls
into is largely going to turn on that issue.
MR. ADAMS: Yes, sir. I believe a looker
and a
bragger, inappropriate looker and
inappropriate bragger, but I’m going to let him
address you now.
THE COURT: Very good. Okay. Mr.
Gersky, you kind of know where I’m coming from.
THE DEFENDANT: Yes, Your Honor,
I’m aware of that.
It goes without saying that the only thing that
matters today is the well-being of anyone affected or
harmed by this case. I feel that this can not be
emphasized enough.
The fact of the matter is, is that I got caught up
in what I perceived as the anonymity of the internet,
and in the process, I failed to act decently when I
thought that no one was looking.
No amount of words can justify, rationalize or
make normal my behavior, Your Honor. I had every

55a
opportunity and the wherewithal to walk away from
the world detailed in this case, and I neglected to do
so. In the process, I failed myself, I failed society, and
more importantly, I failed those who have been
fortunate enough to love and care about me.
My involvement, no matter the scale, was
simply too much. I’m disgusted with my actions on
every level. As a man of 35 years old, I was 35 five
years of age, I can only hope to some day redeem
myself and do good in this world, no matter how
limited my options may be.
Your Honor, regarding the statements I made
on that website, I would be willing to submit to any
line of questioning any way to prove to you
whatsoever that I have never in my entire life had
sexual conduct with anyone under the legal age.
THE COURT: What’s the legal age?
THE DEFENDANT: The legal age of
consent, Your Honor.
THE COURT: Which is?
THE DEFENDANT: In the State of
Michigan, 16 years old. I never had section with a 16year-old girl in the State of Michigan, not since the
time I was 16 years old.
THE COURT: So let’s understand what
your denial is. Have you had -- during the period of
the conspiracy period, this era, this period in which
you were several years surrounding your involvement
with Sekretchat, before and after, did you have sex
with any females under 18 years old?

56a
THE DEFENDANT: I believe I had sex
with one female, 17 years of age, when I was
approximately 29 years old or possibly 30.
Sekretchat?

THE COURT: And did you meet her on
THE DEFENDANT: No, I did not.
THE COURT: How did you happen to

meet her?
THE DEFENDANT: This was on a
dating website.
THE COURT: You stated on January 11,
2015, “I ran through a string of 15 to 17 year olds last
year before I got a more age appropriate girlfriend.”
What was that referring to?
THE DEFENDANT: Your Honor, that
was hyperbole. I was once again talking myself up in
a world of people who concerned themselves with
underage girls. On the life of anyone who has ever
cared about me, I did not, quote unquote, “run
through a string of 15- to 17-year-old girls.” There was
one girl who I believe was 17 years old, who told me
she was 17 years old. Outside of that, I have never, as
an adult, had sex with anyone under the age of 18.
THE COURT: There was a discussion on
January 14, 2015, about the legal age in Michigan.
And you said, “It’s 16 here, but I’m pretty sure I
accidentally made a 14 year old my fuck buddy last
year.” Excuse the language.

57a
THE DEFENDANT: I understand, Your
Honor. Once again, hyperbole. I was talking myself up
on line.
THE COURT: February 2, 2015,
“Sixteen is legal in my area, and I think I accidentally
had sex with a 14 to 15 year old a few times last year.
The trick to not getting Hansened is to never mention
sex while talking to them.” What does “Hansened”
mean?
THE DEFENDANT: Your Honor, I’ll
speak in reference to being caught having sex with an
underage girl, or attempting to have sexual conduct
with an underage girl.
THE COURT: And what does the
Hansened refer to?
THE DEFENDANT: Chris Hansen.
Preditor.

THE COURT: Preditor. To Catch a
THE DEFENDANT: Yes, Your Honor.

THE COURT: So you were saying the
trick -- this is your fellow co-conspirators in this
Sekretchat -- the trick, you’re advising them, is not
getting Hansened, to never mention sex while talking
to them. That is, on line, don’t mention sex, and then
you can’t get caught. If you happen to have sex later,
there won’t be a paper trail, correct?
that.

THE DEFENDANT: Your Honor, I said
THE COURT: Yes.

58a
THE DEFENDANT: I did say that. Once
again, I would be willing to submit anything
necessary to prove to you that I have never had sex
with an underage girl.
THE COURT: Then a minute later you
said, “I’m not going to lie. When I went to meet that
15 year old for the first time, I almost S in my pants.
But we met in a public place and I had only lightly
flirted over the phone prior to that.”
THE DEFENDANT: Your Honor, I was
speaking in regards to the 17-year-old girl. The exact
same girl that I informed you of earlier, I was
embellishing her age while speaking to the chatroom.
THE COURT: Anything further you
wish to tell me?
THE DEFENDANT: Only that I wasn’t
lying when I was speaking to you earlier. I’m
grievously sorry for my actions. And it’s not about me,
it’s about how this affected other people involved in
the case, how it affected the girls involved in the case.
THE COURT: Okay. Thank you.
Honor.
further?

THE DEFENDANT: Thank you, Your
THE COURT: Mr. Adams, anything
MR. ADAMS: No, sir.

THE COURT: Will the Government
respond to whatever evidence you have regarding
whether Mr. Gersky actually had sex with underage

59a
girls versus, as he states, it was mere hyperbole,
bragging to these other men.
MR. BERRY: Sure. So we don’t have the
text messages or anything that Mr. Adams, you know,
suggested might be corroborative of this, and that
that might somehow change his admission if we had
that. We certainly don’t have it. Of course, as the one
that you just read makes clear, one of the reasons we
wouldn’t find that is “never mention sex while you’re
talking to them,” right? So there’s not going to be that
paper trail.
THE COURT:
intentionally no paper trail.

In

fact,

there

was

MR. BERRY: Right.
THE COURT: That still doesn’t mean he
did it.
MR. BERRY: Sure. So I think what you
have to do is, and we just presented to you, it doesn’t
affect guidelines, right? All we can -THE COURT: It affects my judgment
under 3553(a) regarding protecting the public from
future crimes of this defendant. That is where it’s
relevant.
MR. BERRY: And that’s why we put it
in, Judge, because while it doesn’t affect the
guidelines, while it may not have made it into the PSR
for that reason, we think it’s absolutely relevant and
probative for Your Honor to think about this. And
when we think about how can we assess this as to
whether it’s just braggadocio, or is it something
genuine, is he speaking genuinely. And one thing is to

60a
sort of compare and contrast what he -- when he’s
speaking then versus when he’s speaking now. And,
you know, he denied that he was Hesh, one of the only
defendants in this case -THE COURT: Tell me about that.
MR. BERRY: When the FBI walked in
his door, I think he’s the only defendant who refused
to acknowledge that he was this Hesh person on
Sekretchat. So he denied that for a very long time.
THE COURT: How long?
MR. BERRY: Until he plead guilty, Your
Honor. So he denied that at the time of the search
warrant. We took as long as we did to review the
forensics that we could, and we were able to charge
him nonetheless. But he -THE COURT: But he, throughout,
denied he was Hesh.
MR. BERRY: Right, he denied it until
the evidence became overwhelming.
THE COURT: So he made a false
statement to FBI -- Was it FBI agents?
MR. BERRY: Yes.
THE COURT: He made false statements
to FBI agents.
MR. BERRY: In October of 2015, when
the search warrants were executed, roughly October
2015, when the seven search warrants were executed,
he -- on the search warrant they walk in, they find
things in his house with the word Hesh on them, and

61a
confront him with that, because we know that’s his
user name.
THE COURT: You already
because you had the IP information.

knew

THE DEFENDANT: We had his IP from
there, he used it at the community college he was
going to, we knew it was him. He said no, wasn’t me.
Hesh was a 1980s rock band. Well, in fact, he talks
about Hesh in the Sekretchat group. When he talked
to them, he talked about how he loves the movie, there
was a movie called Hesh, a popular film, and he liked
that film. And he talked about it in the Sekretchat.
What does he do when he’s in the Sekretchat? He
talks. Because he -- and he’s not lying in these chats,
right, he’s talking about his interest in Hesh, which is
why he uses that user name. And we go into his house
and we find evidence of Hesh, and that’s him. But
when he’s confronted with a significant sentence and
a string of things he said that makes him look bad,
then he’s going to deny that. It doesn’t surprise me.
THE COURT: And was there more than
this -- it was a single interview right when he’s
confronted, correct?
MR. BERRY: That’s right.
THE COURT: And the FBI interviewed
him and he denied that he was Hesh.
MR. BERRY: Correct.
THE COURT: Was he confronted with
these statements?
MR. BERRY: No.

62a
THE COURT: He just denied he was
Hesh.
MR. BERRY: Correct.
THE COURT: And at any time did he
come back in before the guilty plea to advise the
Government that he was, in fact, Hesh, and that he
wanted to talk?
MR. BERRY: He did not, Your Honor.
THE COURT: Did he ever offer to -before the guilty plea, to come in and proffer?
MR. BERRY: As you know, Your Honor,
he was the last to plead, and there was not much
cooperation, we were headed to trial, we were
marking exhibits when this finally came down.
The other thing I think is important when
we’re assessing whether he is just bragging in this, is
if we just had a one-off statement like, for example,
you read the one from January 14, 2015. Let’s just say
that’s all we have, right? I’ve got a really weak
argument that he is talking about something that is
factual and real in his life. It’s a one-off statement. It’s
categorized more easily as just an offhanded
comment, how do we know whether it’s true or not.
But I think what you do is if you look at this in its
timeline, right, it’s not a one time statement. He
makes this brag, if we’re going to call it a brag, he
makes this brag on November 21st, 2014, again on
December 5th, again on January 11th, again on
January 14th and again on February 2nd. Right? Six
different times he makes this brag, as he wants to call
it now.

63a
THE COURT: And for the record, you’re
listing these, this is docket entry 497, page 21 of the
Government’s brief where you’re listing these,
correct?
MR. BERRY: Correct. Our sentencing
memorandum.
THE COURT: And these logs were
provided in discovery to the defendants.
MR. BERRY: Yes. In fact, Your Honor ordered
us to turn all 148,000 lines of chat in this case, and
we did.
And what it showed is on six different occasions
between December and February, he makes the same,
quote unquote, “brag” about having sex with
underage girls. He changes the ages ever so slightly.
But every single time, they’re under the age of 18. And
occasionally he acknowledges that, in fact, they were
under the age of 16.
And that’s important, because what else does
he do? How else do we know he’s telling the truth? He
talks about the age of consent.
THE COURT: He seems unusually
aware of that.
MR. BERRY: When I read that, I
thought, I’m familiar with sort of Romeo and Juliette
laws, you can have sex with a 16 year old if you’re 19,
maybe, in some jurisdiction. But I thought surely a 30
year old can’t have sex with a 16 year old in Michigan.
I called my AUSA, I’ve done crowd sourcing cases with
this, and he goes, nope, it’s 16 in Michigan. You can
be 64 years old and have sex with a 16 year old in

64a
Michigan. And he knew that, right, and he tells his
friends that, because it’s true. Because he knew that
and he’d been doing it.
THE COURT: It’s interesting, because I
practiced law here, been a judge for over 40 years, I
have no idea what the age of consent in South
Carolina is.
MR. BERRY: I didn’t know what it was
in Michigan either. So I think that’s telling, right?
These are data points. The frequency that he said it,
over the time span that he said it, combined with the
true statements that he makes about knowing the law
there, for all relevant data points that indicate what
he said then is true, and what he’s saying now is
designed to help himself out. It’s a self-aggrandizing
statement to help his own case right now. And I think
that this is more telling and probative. And we would
ask that Your Honor take that into very serious
consideration.
When we talk about -- One other point about
what he says in here. He brags -- this is an interesting
point -- he’s the only one in the group that brags about
being what he really is, and that is, he tells the group
that he’s a hebephile.
THE COURT: He’s a -MR. BERRY: A hebephile.
THE COURT: What is that?
MR. BERRY: Someone who is interested
in postpubescent children. So someone who is
interested in 13- to 17-year-old girls. He knows that
about himself. Right? And he talks about it in the chat

65a
and about how he knows that about himself. I don’t
know if he said hebephile or ephebephile, I can’t keep
it straight, but essentially it is that age group of 13to-17-year-old girls.
THE COURT: Can you read me the
comment you’re referring to?
front of me.

MR. BERRY: I don’t have that one in

MR. ADAMS: That’s accurate. It was a
one sentence -- one-sentence statement.
MR. BERRY: Right, it was a one-off and
he was just talking about that. That’s a data point to
show it’s a true statement.
THE COURT: So a -- How do you spell
this?
MR. BERRY: H-E-B-O-P-H-I-L-E. So as
opposed to a pedophile, which is clinically described
as someone who has an interest in prepubescent
children.
THE COURT: It’s postpubescent.
MR. BERRY: Under the age of 18.
Basically he likes developed females, but likes them
young. And his own descriptions in the chats makes it
clear that he likes -- he one time says big, and he says
the pejorative for breasts, those are on a 13 year old
are amazing. Like we acknowledge that. But he likes
that age, he knows the age he likes, he knows what
he is described on from a psychiatric perspective. And
when he says these things, he’s not just puffing. These
are things that happened and that he’s talking about.

66a
I don’t think it’s just one 17 year old that he’s alluding
to.
I credit him for acknowledging that much, but
I think that’s still minimization, and I think the Court
should take that into consideration.
The final thing I would point out is Your Honor
sentences a lot of people from a lot of different
backgrounds, and what I think we tried to point out
in our memo, and that is remarkable about this
defendant, is he had -- he was on an upward
trajectory, as they described it in their memo. He was
in a good environment, going to school, with a live-in
girlfriend. This, Your Honor, was him at his best,
when he committed this crime. He was doing very
well personally. There’s no some big explanation
about a divorce, an alcohol, drug -- he was -THE COURT: I even heard a bad knee
today.
MR. BERRY: Right.
THE COURT: In the explanation today.
I never heard that one before.
MR. BERRY: We did get a bad knee
explanation, I made a note about that one, too, earlier.
But I think that’s important to think about, right,
when we think about a defendant who is doing their
best, and still did this. And as Your Honor has pointed
out, there’s very significant serious comments that he
made. We, as we put in our memo, we think he falls
somewhere between Gressette and Ellis, who you
previously sentenced today. We think he falls
somewhere in between those. And we tried to be

67a
reasonable about calculating that, right? Every single
one of our recommendations was a below-guideline
recommendation technically, right? And what we’re
trying to do is trying to be reasonable. We could come
in -THE COURT: So you argue there is
future dangerousness?
MR.
BERRY:
Absolutely
future
dangerousness is important. He’s a super smart guy,
he was very conniving. He was one of the more
arrogant and manipulative guys on there. He had
lewps, the Torey, and -- I forget the other name, but
the lewp that he had that he frequently used and
talked about the multiple references to his use of
those lewps. He was not just a looker or a passive
observer, he was active on the first version of
Sekretchat. When they took down the server in
Canada, he was active on the second version. He
didn’t quit.
I don’t have anything else. If Your Honor has
questions, I’m happy to answer them.
THE COURT: Mr. Gersky, let me ask
you a couple questions, if I might, sir.
THE DEFENDANT: Yes, Your Honor.
THE COURT: Did you falsely state to
the FBI agent that you were not Hesh?
THE DEFENDANT: Indeed I did, Your
Honor. My initial statement was that I didn’t wish to
speak with the FBI agents without an attorney
present. And I was held for approximately an hour
and a half and questioned, after stating that, I

68a
believe, upwards of eight to 11 times. But I -- you are
correct, Your Honor, I did deny it initially.
THE COURT: And did you use the lewps to
induce these victims to participate in your request
that they masturbate?
THE DEFENDANT: Your Honor, yes, I was
given chopped up lewped videos by another member
of the website.
THE COURT: But you used it.
THE DEFENDANT: Yes, yes, I was.
THE COURT: And did you lie to the
victims that you were a teenage boy or girl?
THE DEFENDANT: I did at one point,
Your Honor, yes.
THE COURT: I’m sorry?
THE DEFENDANT: Yes, Your Honor.
THE COURT: You did lie to them?
THE DEFENDANT: Yes.
THE COURT: So you lied to the FBI, you
lied to your victims, and you’re telling me -- and I have
to decide whether you are lying to your co-defendants
or me. That’s what I’ve got to decide, right?
Honor.

THE DEFENDANT: I understand, Your
THE COURT: Mr. Adams?

69a
MR. ADAMS: Yes, sir. The part about
the FBI statements are in the PSR on page 18,
paragraph 29.
are.

THE COURT: Let me go to where you
MR. ADAMS: Page 18, paragraph 29.
THE COURT: Let me get there. Okay,

I’ve read it.
MR. ADAMS: We also -- I mean, you
ruled on a suppression motion on this, and he was not
taken into custody. He did ask for a lawyer, they
continued to press him. I think he did not say he was
Hesh, but he also said there’s this movie Hesh, there’s
this other thing, he deflected. He had asked for a
lawyer numerous times. As that might bear on future
dangerousness, it is what it is.
I’ll also point out, along the lines of will he be a
danger in the future, that was in October of -- three
years ago, October of 2015. He was not arrested. He
was arrested in April of 2016, I think, or -- in
Michigan or -- and then he ended up getting out on
bond, driving down here with his father, going
through the bond hearing again in October of 2016. So
a year later, he had not been on any of these sites.
There had been no engagement, no contact. I mean,
he was -- since this ended, there’s just no evidence
that he was back with another group doing anything.
THE COURT: But he did -MR. ADAMS: That’s the best evidence, I
think, of future dangerousness, or lack thereof.

70a
THE COURT: When the site went down,
he chased it to a new site, correct? He went back to
the site.
MR. ADAMS: Through April. He was
on there through the close of this indictment, and they
-- it went dark, and that was it. I mean, he didn’t have
other relations with these people, he was -- that was
done. So he left there, and his instinct wasn’t to go out
and start his own group or anything else. He was -and look, his conduct has been horrible. He’ll be the
first to admit that.
THE COURT: I mean, right, the initial
conduct we have here, which is inducing -- deceiving
child victims and inducing them to commit sex acts so
you can videotape it and share with your buddies so
you can get other types from them, is horrendous
conduct.
MR. ADAMS: Horrendous conduct.
THE COURT: And you can see how
that’s different from a guy who may possess
something he received on the internet and never
interacts with the victims. You can understand the
Court’s concern that someone who would engage
children in this manner raises a specter of
dangerousness that is, you know, may often be much
more than would involve a situation where you’re
more passive in gathering that information.
MR. ADAMS: It can be, and it’s harder
to figure out which category the case falls in.
I would say the fact that he wasn’t out doing
new stuff, is a really good fact --

71a
THE COURT: I share your view that
that’s a piece of evidence I should consider.
MR. ADAMS: That shows maybe he
really, you know, we don’t have to worry about him in
the future. But if we are worried, we have got the
resources of probation, we’ve got treatment, we’ve got
all these things.
THE COURT: On
shouldn’t send him to jail at all.
have to.

that

theory,

I

MR. ADAMS: Well, you have to. You

THE COURT: Why would I have to?
Because it is such outrageous conduct, it would be
unconscionable not to. I mean, frankly, Congress is
absolutely on the money on this one. But on your
theory, taken to its illogical conclusion, I should never
sentence anybody, because they’re all -- Listen, you
know me, Mr. Adams, I am a big advocate of our
federal probation system, and I think our work in the
area of pedophilia is one of the great successes of our
supervised release program. But they’re not perfect,
they don’t follow the people around, they’re not
capable of stopping people who are persistent in
engaging in abuse; they can’t do it.
So I share your view that there are efforts,
there are many efforts that contribute to success, and
the lack of recidivism in some of the defendants, but
it’s not a substitute for incarceration where there’s
public dangerousness.

72a
MR. ADAMS: I understand that that is
true, and that that is your view, and I’m not trying to
urge you not to have that view.
THE COURT: But I share your view that
there is benefit associated with frequent polygraphs,
with close supervision, unannounced home visits, the
computer internet monitoring program, et cetera, to
some degree reduces the risk of recidivism.
MR. ADAMS: Judge, there was one year
from when the FBI -- So there was six months from
the closing of the chatroom to when the FBI showed
up with a search warrant. There was a year between
the search warrant and the arrest, I believe, and
showing up down here. No problems. And then
another year before we entered the plea, where he
was under the guidance and tutelage and mentoring
of pretrial release in Michigan. My understanding is
absolutely no issue. No issue at all. I think all those
are signals, and clear signals that he is somebody who
is going to take that obligation seriously when
whatever the amount of time is that you deem is
appropriate is over, he’s going to do what he needs to
do to not return.
And if -- I’d like to leave you with that, so I
won’t step on my sit down line. Thank you.
THE COURT: Very good.
MR. BERRY: Your Honor, if I could just
point out one -- on paragraph November 29, on the top
of page 19, in addition to lying about being Hesh, he
also denied having any encryption. And as you heard
just a moment ago, when he pled guilty, we got a lot
of encrypted devices that he had to decrypt for us. So

73a
I would just urge Your Honor to think about that
when you’re balancing that.
Then I anticipated somewhat of an argument
that Mr. Adams made about, well, from six months
till we did the search warrant, a year between that
and the indictment, and another year, all that sort of
thing, you know, that’s all emblematic of the process
working for the defendant’s benefit, right? We’re not
going to get a search warrant in those six months
until we have our ducks in a row and we feel like we
have probable cause and we feel like we can approach
a federal judge and ask for that. We’re going to protect
his rights.
THE COURT: He’s not complaining
about being slow, he’s just saying that during this
period he didn’t commit -- he says you don’t have
evidence that he had sex with underage girls,
basically, or was on the website doing this type of
abusive conduct.
MR. BERRY: And my point there is the
wheels of justice move slowly, right, because -THE COURT: I don’t think he’s
criticizing you for moving slowly, he’s just making the
argument that there is a lapse of time, and during this
time you don’t have evidence that he went back and
did other conduct.
MR. BERRY: What I want to point out is
we do everything we can to protect his rights. Today
should be about the victims and the victims’ rights,
and you heard all that this morning, and I would just
urge Your Honor to think about those statements
again.

74a
THE COURT: Obviously the defendant
has a right to defend himself.
MR. BERRY: I’m not criticizing that.
THE COURT: I mean he’s doing what
he’s -- you know, I’ve laid it out to him where my
concern is, and he has addressed it, and I’ve got to
assess credibility here.
Thank you.

MR. BERRY: Yes, sir, understood.
THE COURT: Mr. Adams, anything

further?
MR. ADAMS: Just the very last thing,
Judge, is had they come and asked him about these
underage girls, he would have answered and they
could have polygraphed him.
THE COURT: I don’t have any doubt
he’d have said the same thing he said right there.
MR. ADAMS: He would have said the
same thing and he would have submitted to the
polygraph. And he would tomorrow, if anybody
wanted to. So we stand by that denial.
Thank you.
THE COURT: Before I impose sentence,
I want to make some comments, and then I’m going to
announce the sentence and then I’m going to more
fully explain the Court’s reasoning under 18 United
States Code 3553(a).
I am confronted with conflicting evidence. I
have the defendant denying that he had sex with

75a
anyone other than a 17-year-old girl, and that that
was not part of this Sekretchat program.
On the other hand, I have him making multiple
statements at a time he didn’t know anyone was
watching, in which he repeatedly represented to his
fellow purveyors of this activity, that he was engaged
in sexual activity with underage girls, and the
question is, which one is true. Obviously one of them
is untrue.
And I have looked to the pattern of conduct
here, that he deceived and lied to the victims using a
deceptive device with the lewps, which was a
misrepresentation, to act like that this was conduct in
which he or friends of his were involved. He deceived
the FBI and denied that he was Hesh or that he had
encryption.
He seemed unusually knowledgeable regarding
the age of consent, the subtleties of it, including here
when I questioned him. And I thought his conduct
was avoiding, and when he was not answering
straight about the age of consent. And this whole
comment about being Hansened, of course that’s
referring to Chris Hansen in To Catch a Predator
program, in which he described in detail his
methodology for avoiding detection. And then it’s
argued, you can’t see evidence of it on the computer,
which is exactly what he indicated he would never do,
and that’s how he avoided getting caught.
I find most likely he did have sex with girls
under 16, under the age of 16, and that his statements
were credible when he stated that he did. That is, at
the time that he was engaged in the conspiracy, his

76a
statements to the co-defendants I find to be most
probably true, that he was speaking truthfully.
Okay. Let me set forth the sentence, and then
I’m going to state more fully addressing the standards
under 18 United States Code 3553(a), because I do
intend to vary from the 600-month guideline
sentence.
Having calculated and considered the advisory
Sentencing Guidelines, and having also considered
the relevant statutory sentencing factors contained in
18 United States Code 3553(a), it is the judgment of
the Court that the defendant, James Gersky, is
hereby committed to the custody of Bureau of Prisons
to be imprisoned for a term of 360 months. Said term
consisting of 360 months as to count two, and 240
months as to count three to run concurrently.
The Court recommends that the defendant
participate in the sex offender treatment program
while incarcerated.
It appears the defendant does not have the
ability to pay a fine; therefore, the fine is waived.
The defendant shall pay the mandatory $200
special assessment fee.
The restitution is due in the amount of
$108,715. The portion, which is the entire portion, is
related to Sekretchat and is joint and several among
all of the defendants in 2:15-799. Interest on
restitution is waived.
Upon release from imprisonment, the
defendant shall be placed on supervised release for a

77a
term of life as to each of the counts two and three to
run concurrently.
Within 72 hours of release from the custody of
Bureau of Prisons, the defendant shall report in
person to the probation office in the district to which
the defendant is released. While on supervised
release, the defendant shall comply with the
mandatory and standard conditions of supervision
outlined in 18 United States Code 3583(d).
The defendant shall also comply with the
following special conditions for the reasons set forth
in the presentence report which has previously been
adopted by the Court as the findings of fact for
purposes of sentencing.
Then recommend the following special
conditions for supervised release. The defendant shall
participate in a program of mental health counseling
and treatment as deemed necessary by the United
States probation officer, until such time as the
defendant’s release from the program is approved by
the United States probation officer.
The defendant shall participate in the
computer internet monitoring program and abide by
the rules of that program as approved by the United
States probation officer.
The defendant shall participate in a sex
offender treatment program approved by the United
States probation office, which may include
physiological and psychological testing.
any

The defendant shall contribute to the cost of
treatment, drug testing and/or location

78a
monitoring, not to exceed an amount determined
reasonable by the court-approved United States
probation officer sliding scale for services, and shall
cooperate in securing any applicable third-party
payment, such as insurance or Medicaid.
The defendant shall not possess, procure,
purchase or otherwise obtain access to any form
computer network, bulletin board, internet or
exchange format involving computers, unless
specifically approved by the United States probation
office.
The defendant shall have no unsupervised
contact with children under the age of 18 without the
approval and consent of the United States probation
office.
The defendant shall comply with the sex
offender registration laws in accordance with the Sex
Offender Registration and Notification Act, SORNA,
including any applicable state laws.
The defendant shall not possess any audio or
visual depictions containing sexually-explicit conduct
as defined by 18 United States Code 2256(2)(A).
The defendant shall not frequent adult book
stores, sex shops, topless bars or locations that act as
a sexual stimulus.
The defendant shall submit to random
polygraphs for treatment purposes, as well as
compliance to the standard conditions of supervision,
to be conducted by any person deemed appropriate by
the United States probation officer as a treatment

79a
tool, to be used in conjunction with his sex offender
treatment program, with the following limitations.
A, answers to questions asked during a
polygraph test can not be used against the defendant
in any criminal proceeding other than an action to
extend, modify or revoke supervised release.
B, information obtained during polygraph
testing can not be made public or released to state or
any other prosecuting authorities.
And C, information obtained during polygraph
testing can not be used in a civil commitment
proceeding under state or federal law.
The defendant shall make copayments up to
the total cost of the polygraph. These payments shall
be made in addition to copayments made for sex
offender treatment, and shall be based on a sliding
scale.
The defendant shall pay any remaining
restitution in the amount of $108,715, at a rate of no
less than $500 per month, beginning within 60 days
of release. The payment shall be made payable Clerk,
United States District Court, and mailed to Post
Office Box 835, Charleston, South Carolina, 29402.
Interest on restitution ordered as to this defendant is
waived. Payment shall be adjusted accordingly, based
on the defendant’s ability to pay as determined by this
Court.
In reaching this sentence the Court has
carefully considered all the factors under 18 United
States Code 3553(a), weighing the entire body of

80a
evidence that is before the Court in making a
sentencing decision.
My goal has been, as required by statute, to
impose a sentence which is sufficient but not greater
than necessary to comply with the purposes of the
statute.
I’ve considered all the factors, but the following
ones stand out as most significant in this sentence.
I’ve considered the nature and circumstances of this
offense. We discussed this extensively today. This is
remarkably
predatory
deceptive
conduct,
systematically abusing a wide range of children. I
believe the victims now total, one of the coconspirators, up to 80.
I’ve considered the history and characteristics
of this defendant. He had no prior criminal history.
But it is very clear to me, as I previously stated in my
finding, that he was actively engaged in contact with
underage children, as well as engaged in his
predatory conduct.
I find this to be a serious offense. I believe this
sentence promotes respect for the law, provides just
punishment for the offense, affords adequate
deterrence to criminal conduct, and most importantly,
protects the public from further crimes of this
defendant.
Let me provide the -- Do you have a particular
preference in terms of location, Mr. Adams?
MR. ADAMS: Butner, please.
THE COURT: The Court will request
FCI Butner to the Bureau of Prisons.

81a
I believe there was a partial appeal waiver, Mr.
Secor, is that correct?
MR. SECOR: Yes, Your Honor.
THE COURT: Very good. And subject, of
course, to that partial waiver, I provided the following
appeal notice.
Mr. Gersky, you can appeal your conviction if
you believe your guilty plea was somehow unlawful,
or if there was some other fundamental defect in the
proceedings that was not waived by your guilty plea.
You also have a limited right to appeal. The
scope of that, we addressed at the time we took your
guilty plea. But to the extent you have remaining
rights of the guilty plea, you can appeal your sentence
under certain circumstances, particularly if you
believe the sentence is contrary to law. The basic of
the appeal rights, as I recall it, covered all matters,
waived all rights of appeal except for ineffective
assistance of counsel, prosecutorial misconduct and
change in the law that affects the lawfulness of the
sentence.
Mr. Gersky, you must file an appeal within 14
days of the entry of judgment. Further, you have a
right to apply to appeal in forma pauperis, and the
Clerk of Court will prepare and file a notice of appeal
upon your request.
Mr. Secor, are there motions associated with
dismissal of other counts?
MR. SECOR: Yes, Your Honor, we move
to dismiss counts one and four of the second
superseding indictment.

82a
THE COURT: That is granted. Are there
further matters from the Government?
MR. SECOR: No, Your Honor.
THE COURT: From the defense?
MR. ADAMS: No, sir.
THE COURT: This hearing is adjourned.
(Court adjourned at 2:27 p.m.)
REPORTER’S CERTIFICATION
I, Debra L. Potocki, RMR, RDR, CRR,
Official Court Reporter for the United States District
Court for the District of South Carolina, hereby
certify that the foregoing is a true and correct
transcript of the stenographically recorded above
proceedings.
S/Debra L. Potocki
Debra L. Potocki, RMR, RDR, CRR

